<html>
<title> - LOOKING NORTH: ASSESSING THE CURRENT THREAT AT THE U.S.-CANADA BORDER</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


 LOOKING NORTH: ASSESSING THE CURRENT THREAT AT THE U.S.-CANADA BORDER

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                               BORDER AND
                           MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 14, 2017

                               __________

                           Serial No. 115-38

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________


                      U.S. GOVERNMENT PUBLISHING OFFICE                    
29-471 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0364736c43607670776b666f732d606c6e2d">[email&#160;protected]</a> 


                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Lou Barletta, Pennsylvania           William R. Keating, Massachusetts
Scott Perry, Pennsylvania            Donald M. Payne, Jr., New Jersey
John Katko, New York                 Filemon Vela, Texas
Will Hurd, Texas                     Bonnie Watson Coleman, New Jersey
Martha McSally, Arizona              Kathleen M. Rice, New York
John Ratcliffe, Texas                J. Luis Correa, California
Daniel M. Donovan, Jr., New York     Val Butler Demings, Florida
Mike Gallagher, Wisconsin            Nanette Diaz Barragan, California
Clay Higgins, Louisiana
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
                   Brendan P. Shields, Staff Director
               Steven S. Giaier,  Deputy General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                  Martha McSally, Arizona, Chairwoman
Lamar Smith, Texas                   Filemon Vela, Texas
Mike Rogers, Alabama                 Cedric L. Richmond, Louisiana
Jeff Duncan, South Carolina          J. Luis Correa, California
Lou Barletta, Pennsylvania           Val Butler Demings, Florida
Will Hurd, Texas                     Nanette Diaz Barragan, California
John H. Rutherford, Florida          Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
              Paul L. Anstine, Subcommittee Staff Director
    Alison B. Northrop, Minority Subcommittee Staff Director/Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Martha McSally, a Representative in Congress From 
  the State of Arizona, and Chairwoman, Subcommittee on Border 
  and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Filemon Vela, a Representative in Congress From the 
  State of Texas, and Ranking Member, Subcommittee on Border and 
  Maritime Security..............................................     4

                               Witnesses

Mr. Michael Dougherty, Assistant Secretary for Border, 
  Immigration, and Trade Policy, Office of Strategy, Policy, and 
  Plans, U.S. Department of Homeland Security:
  Oral Statement.................................................     6
  Joint Prepared Statement.......................................     7
Mr. Scott A. Luck, Acting Deputy Chief, U.S. Border Patrol, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................    12
  Joint Prepared Statement.......................................     7
Mr. Kevin Kelly, Special Agent in Charge, U.S. Immigration and 
  Customs Enforcement, U.S. Department of Homeland Security:
  Oral Statement.................................................    14
  Joint Prepared Statement.......................................     7
Dr. Michael Marchand, Chairman, Colville Business Council, 
  Testifying on Behalf of National Congress of American Indians:
  Oral Statement.................................................    15
  Prepared Statement.............................................    17

                                Appendix

Questions From Ranking Member Filemon Vela for Michael Dougherty.    37
Questions From Ranking Member Filemon Vela for Scott A. Luck.....    38
Questions From Ranking Member Filemon Vela for Kevin Kelly.......    41

 
 LOOKING NORTH: ASSESSING THE CURRENT THREAT AT THE U.S.-CANADA BORDER

                              ----------                              


                       Tuesday, November 14, 2017

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room HVC-210, Capitol Visitor Center, Hon. Martha McSally 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives McSally, Barletta, Hurt, Vela, 
Correa, and Barragan.
    Also present: Representatives Katko and Gallagher.
    Ms. McSally. The Committee on Homeland Security's 
Subcommittee on Border and Maritime Security will come to 
order.
    The subcommittee is meeting today to examine the threats 
along our Nation's Northern Border.
    First, I ask unanimous consent that the gentleman from New 
York, Mr. Katko, a Member of the full committee, be permitted 
to participate in today's subcommittee hearing.
    Without objection, so ordered.
    I now recognize myself for an opening statement.
    When Congress talks about border security, it is usually in 
reference to the Southwest Border where my community is. 
However, we cannot ignore the threats we face along the 
Northern Border.
    At almost 4,000 miles long, including a long, liquid border 
with the Great Lakes, our shared border with Canada is a 
situational awareness challenge that requires a much different 
strategy than that on the Southwest Border. To address these 
challenges, DHS needs to develop a coherent Northern Border 
strategy and implementation plan to protect our northern 
frontier.
    Last year, Congressman John Katko led Congressional efforts 
to pass the Northern Border Threat Analysis Act. This 
legislation required DHS to focus its attention on National 
security threats that originate along our Northern Border. The 
Department finally released a threat analysis this past summer 
with plans to release the full strategy in January 2018, and an 
implementation plan to follow that shortly thereafter.
    Threats identified in the Northern Border analysis include 
domestic Canadian terror plots and radicalized individuals 
attempting to enter the United States illegally. Similar to the 
Southern Border, transnational criminal organizations that 
control the bidirectional flow of illicit drugs, such as 
cocaine, heroin, fentanyl, ecstasy, and marijuana, also pose a 
threat.
    Customs and Border Protection and Immigration and Customs 
Enforcement are the law enforcement agencies tasked with 
securing the border and disrupting these transnational criminal 
networks.
    The report highlights the importance of CBP and ICE's law 
enforcement partnerships with our Canadian counterparts, 
stressing the need for close cooperation and intelligence 
sharing to identify, track, prevent, and eventually interdict 
illicit cross-border activity.
    The United States has long maintained a close working 
relationship with the Canadian Government to fight terrorism. 
Recently, the Department has taken positive steps to ensure 
that appropriate National security watch lists, such as the no-
fly and selectee lists, are shared with Canadian law 
enforcement and that reciprocity is in place.
    The threat analysis report also identifies significant gaps 
in our capabilities along the Northern Border, including an 
insufficient amount of technology and personnel that makes 
achieving operational control and situational awareness nearly 
impossible. Personnel shortfalls are no surprise to this 
subcommittee. We are down almost 2,000 Border Patrol agents 
Nation-wide and a similar number of CBP officers. On the 
Northern Border, we are 10 percent below the authorized level, 
despite the fact that the Northern Border is twice as long.
    Surveillance technology shortfalls, coupled with a less-
than fully-staffed Border Patrol, leads to a lack of 
operational control. That is a major vulnerability at our 
Northern Border.
    In fact, a 2010 GAO report found the level of operational 
control along the Northern Border was at less than 2 percent. 
That is unacceptable. We can only hope that in the last 7 
years, operational control has improved exponentially. If not, 
this is a huge problem.
    Let me be clear. The bidirectional flow of drugs, 
specifically the opioids like fentanyl and heroin, is one of 
the greatest threats that we face with the Northern Border. 
Fentanyl is now a leading cause of overdose deaths in the 
United States. These drugs and their precursors are being 
sourced from China and Mexico, and trafficked overland through 
our international borders and showing up in neighborhoods all 
over the United States.
    The Drug Enforcement Agency attributes the flood of illicit 
substances to smuggling routes that originate in Canada and 
pass through the Northern Border. CBP and ICE's priority must 
be to shut down these illicit pathways.
    Drug seizures at and between the ports of entry along the 
Northern Border are significantly lower than the number of ICE 
HSI drug seizures within the Northern Border region. The 
numbers just don't add up, so CBP must acquire the tools and 
staffing levels necessary to identify and interdict these 
harmful substances as they are smuggled in the legitimate 
traffic that crosses the border every single day. TCOs are 
active along the Northern Border and have the ability and 
resources to move these drugs southbound into the United 
States.
    A 2015 special investigation published by the Vancouver Sun 
reported that the Hells' Angels motorcycle gang controls many 
of Canada's largest ports. If true, this is concerning, given 
the ease with which drugs can be smuggled into Canada bound for 
the United States. In order to stem the flow of illicit drugs 
along our Northern Border, we must work with our partners to 
defeat these transnational criminal organizations.
    While the Northern Border threat analysis is the first step 
in addressing the threats along the Northern Border, we expect 
the strategy and implementation plan to not only identify gaps, 
but also take concrete steps to close them.
    Thanks for being here to discuss these threats that we face 
at our Northern Border.
    [The statement of Chairwoman McSally follows:]
                 Statement of Chairwoman Martha McSally
                           November 14, 2017
    When Congress talks about border security, it is usually in 
reference to the Southwest Border. However, we cannot ignore the 
threats we face along the Northern Border.
    At almost 4,000 miles long, and a multitude of different terrains, 
our shared border with Canada is a situational awareness challenge that 
requires a much different strategy than that of the Southwest Border.
    To address these challenges, DHS needs to develop a coherent 
Northern Border strategy and implementation plan to protect our 
northern frontier.
    Last year Congressman John Katko led Congressional efforts to pass 
the Northern Border Threat Analysis Act. This legislation required DHS 
to focus its attention on National security threats that originate 
along our Northern Border.
    The Department finally released a threat analysis this past summer, 
with plans to release the full strategy in January 2018, and an 
implementation plan to follow shortly thereafter.
    Threats identified in the Northern border analysis include domestic 
Canadian terror plots and radicalized individuals attempting to enter 
the United States illegally. Similar to the Southern Border, 
transnational criminal organizations that control the bi-directional 
flow of illicit drugs such as cocaine, heroin, fentanyl, ecstasy, and 
marijuana also pose a threat.
    Customs and Border Protection and Immigration and Customs 
Enforcement are the law enforcement agencies tasked with securing the 
border and disrupting transnational criminal networks.
    The report highlights the importance of CBP and ICE's law 
enforcement partnerships with their Canadian counterparts, stressing 
the need for close cooperation and intelligence sharing to identify, 
track, prevent, and eventually interdict illicit cross-border activity.
    The United States has long maintained a close working relationship 
with the Canadian government to fight terrorism. Recently, the 
Department has taken positive steps to ensure that appropriate National 
security watch lists, such as the no-fly and selectee lists, are shared 
with Canadian law enforcement and that reciprocity is in place.
    The threat analysis report also identifies significant gaps in our 
capabilities along the Northern Border including insufficient amount of 
technology, personnel that makes achieving operational control and 
situational awareness nearly impossible.
    Personnel shortfalls are no surprise to this subcommittee. We are 
down almost 2,000 Border Patrol agents Nation-wide, and a similar 
number of CBP officers. On the Northern Border we are 10 percent below 
the authorized level, despite the fact that the Northern Border is 
twice as long.
    Surveillance technology shortfalls coupled with a less-than fully-
staffed Border Patrol leads to a lack of operational control that is a 
major vulnerability at our Northern Border. In fact, a 2010 GAO report 
found that the level of operational control along the Northern Border 
was at less than 2 percent.
    This is unacceptable.
    We can only hope that in the last 7 years, operational control has 
improved exponentially. If not, this is a huge problem.
    Let me be clear, the bi-directional flow of drugs, specifically 
opioids like fentanyl and heroin, is the one of the greatest threats we 
face on the Northern Border.
    Fentanyl is now the leading cause of overdose deaths in the United 
States. These drugs, and their precursors, are being sourced from China 
and Mexico, trafficked over land through our international borders and 
showing up in neighborhoods all over the United States.
    The Drug Enforcement Agency attributes the flood of illicit 
substances to smuggling routes that originate in Canada and pass 
through the Northern Border.
    CBP and ICE's priority must be to shut down these illicit pathways.
    Drug seizures at and between ports of entry along the Northern 
Border are significantly lower than the number of ICE-HSI drug seizures 
within the Northern Border region. The numbers just don't add up. CBP 
must acquire the tools and staffing levels necessary to identify and 
interdict these harmful substances.
    TCOs are active along our Northern Border and have the ability and 
resources to move these drugs southbound into the United States. Even 
more concerning, a 2015 Special Investigation published by the 
Vancouver Sun reported that the Hell's Angels motorcycle gang controls 
many of Canada's largest ports.
    If true, this is concerning given the ease in which drugs can be 
smuggled into Canada bound for the United States.
    In order to stem the flow of illicit drugs along our Northern 
Border, we must work with our partners to defeat transnational criminal 
organizations.
    While the Northern Border Threat Analysis is the first step in 
addressing the threats along the Northern Border, we expect the 
strategy and implementation plan to not only identify gaps but also 
take concrete steps to close them.
    Thank you for being here to discuss the threats we face at our 
Northern Border.

    Ms. McSally. The Chair now recognizes the Ranking Member of 
the subcommittee, the gentleman from Texas, Mr. Vela, for any 
statement he may have.
    Mr. Vela. I thank the Chairwoman for holding today's 
hearing to examine threats along the Northern Border.
    With the launch of the 2011 Beyond the Border initiative, 
Canada has been a critical partner in assisting the United 
States in stemming the flow of narcotics through our Northern 
Border, as well as identifying and keeping out those 
individuals who pose a security risk. Nonetheless, I am 
concerned that, over the last decade, resources have been 
disproportionately focused on the Southern Border at the 
expense of the Northern Border.
    This past June, the Department of Homeland Security issued 
a mandated report to Congress that assessed and identified 
emerging threats and capability gaps in the air, land, and 
maritime domains along our border with Canada. The findings of 
this report are not unlike what we often see along the 
Southwest Border. While the scale of the threats is different, 
the nature of the threats is similar, and the capability gaps 
identified are concerning.
    As with our Southwest Border, the flow of narcotics between 
and at ports of entry along our Northern Border pose a 
significant public safety threat to our communities. As with 
the Southwest Border, transnational criminal organizations move 
significant amounts of narcotics in commercial cargo containers 
through ports of entry.
    I have mentioned several times in this Congress that 
Customs and Border Protection staffing shortfalls, such as not 
keeping an adequate number of CBP officers at our ports of 
entry or assigning less Border Patrol agents to northern 
sectors by a ratio of 1 to 9, exacerbate border security 
threats.
    As characterized by this report, the lack of situational 
and domain awareness due to insufficient investment in 
technology and infrastructure on our side of the Northern 
Border is deeply concerning. The capability gaps identified in 
this DHS report would in no way be acceptable or tolerable had 
they been found along our Southwest Border.
    Last month, this committee marked up and approved a flawed 
bill that would authorize billions of taxpayer dollars for a 
border wall along our Southwest Border. If we want DHS to 
continue to build up our border security, we have a 
responsibility to the American taxpayer to ensure that the 
Department does so in a way that truly and meaningfully 
maximizes our ability to mitigate risk, especially those risks 
that are well-known and documented.
    I look forward to hearing from our DHS witnesses today 
about the trends and threats they have seen on the ground and 
how we can better address and prevent the exploitation of our 
Northern Border by transnational criminal organizations and 
others who seek to do us harm.
    I am pleased that we are joined today by Dr. Michael 
Marchand, chairman of the Colville Business Council for 
Confederated Tribes of the Colville Reservation. I believe that 
Dr. Marchand's experience and the broader Tribal perspective on 
challenges along our Northern Border will greatly add to our 
subcommittee's understanding of what our Tribal partners see as 
a way forward in terms of border security.
    This past summer, the National Congress of American Indians 
held a day-long summit, and more than 70 participants attended, 
with representation from 19 Tribal leaders from both the United 
States and Canada, to discuss concerns at the United States-
Canadian border. I look forward to hearing more about this 
summit and discussing what participants identified as 
challenges and potential solutions.
    Again, I thank the Chairwoman for holding today's hearing 
to bring attention to this very important topic, and I thank 
all of our witnesses for joining us today.
    I yield back the balance of my time.
    Ms. McSally. The gentleman yields back.
    I ask unanimous consent the gentleman from Wisconsin, Mr. 
Gallagher, a Member of the full committee, be permitted to 
participate in today's subcommittee hearing.
    Without objection, so ordered.
    The Members of the committee are reminded that opening 
statements may be submitted for the record.
    We are pleased to be joined today by four distinguished 
witnesses to discuss this important topic. Mr. Michael 
Dougherty is the assistant secretary for Border, Immigration, 
and Trade Policy at the Department of Homeland Security. Mr. 
Dougherty previously served in DHS as the Citizenship and 
Immigration Services ombudsman, and is a senior policy adviser 
for immigration with the Border and Transportation Security 
Directorate. Mr. Dougherty's Federal experience also includes 
serving as legislative counsel on the personal staff of Senator 
Jon Kyl--where I was a legislative fellow, by the way, on that 
staff--and on the staff of Subcommittee on Terrorism, 
Technology, and Homeland Security within the Senate Judiciary 
Committee.
    Mr. Scott Luck is the acting deputy chief of the U.S. 
Border Patrol. Mr. Luck was assigned to Douglas, Arizona, in my 
district, for nearly 13 years before becoming the assistant 
patrol agent in charge at the Santa Teresa Station within the 
El Paso sector. In 2011, Mr. Luck returned to the El Paso 
sector as the chief of the operations division, and 3 years 
later he was named chief of the operations division for the 
entire U.S. Border Patrol.
    Mr. Kevin Kelly is the special agent in charge of Homeland 
Security Investigation's Buffalo field office. He has served in 
Federal law enforcement for 29 years. He supervises agents 
across 48 counties in New York. Before his position at HSI, 
special agent in charge of Buffalo, Kelly served as deputy 
special agent in charge in both Buffalo and Newark, maintaining 
operational and administrative oversight of our agents and 
mission support staff.
    Dr. Michael Marchand is the chairman of the Colville 
Business Council, National Congress of American Indians, and 
has served on the Colville Business Council for 17 years. Dr. 
Marchand is experienced in reservation planning, managing 
Tribal business projects, and community development.
    The witnesses' full written statements will appear in the 
record.
    The Chair now recognizes Mr. Dougherty for 5 minutes to 
testify.

STATEMENT OF MICHAEL DOUGHERTY, ASSISTANT SECRETARY FOR BORDER, 
IMMIGRATION, AND TRADE POLICY, OFFICE OF STRATEGY, POLICY, AND 
          PLANS, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Dougherty. Chairwoman McSally, Ranking Member Vela, 
distinguished Members of the committee, and visiting Members, 
thank you for the opportunity to appear today to discuss the 
work that is being performed by the Department of Homeland 
Security to address current threats along the border of the 
U.S. and Canada.
    As the subcommittee knows, the Northern Border Security 
Review Act of 2016 required the Department to conduct an 
analysis of terrorism and criminal threats along the Northern 
Border, to identify improvements needed along that border to 
prevent terrorist entry and to diminish crime, to identify gaps 
in law policy and coordination between governments and law 
enforcement agencies, and to determine whether preclearance and 
preinspection operations at our ports of entry can help reduce 
the threat of terrorism.
    In response, the Department delivered the Northern Border 
Threat Assessment report to Congress in August 2017. It was the 
product of intensive and thoughtful work by numerous DHS 
components, including a threat assessment from our Office of 
Intelligence and Analysis.
    In addition to data calls and a literature review, the 
Department conducted a workshop that gathered information in a 
structured way from a large number of experts, focusing on 
those with personal operational experience across the Northern 
Border in the land, sea, and maritime domains.
    The report finds the primary homeland security threats on 
the U.S.-Canadian border are from transnational criminal 
organizations and unidentified home-grown violent extremists. 
However, encounters with individuals associated with 
transnational crime or terrorism remain infrequent.
    Component data indicates that drug smuggling and illegal 
migration activities remain low along the Northern Border, 
especially in comparison with the Southern Border. Terrain, 
weather, and distance are factors that constrain illegal travel 
in remote areas of the border. However, it needs to be said 
that mountainous and heavily forested terrain, heavy snows, and 
the remote nature of much of the border also pose significant 
operational challenges for DHS and its partner agencies.
    While the Department has made strong progress in securing 
the border, the report's preliminary capability assessment 
indicates there are opportunities to enhance collaboration, 
information sharing, domain awareness, and port-of-entry 
infrastructure.
    While preparing the threat assessment, DHS leadership 
determined that it would be valuable to update the Department's 
2012 Northern Border Strategy. The updated strategy is 
currently being developed at DHS as a whole-of-DHS effort. It 
conforms to the Department's new strategic planning guidance, a 
robust set of standards that allow us to connect strategy 
development to our resource allocation process. We are on track 
to complete that strategy in early 2018.
    There are three major focus areas for the strategy: To 
enhance border security operations, to facilitate and safeguard 
lawful trade and travel, and to promote cross-border 
resilience. Within each focus area, the strategy will describe 
prioritized activities critical to achieving our goals on the 
Northern Border.
    Some of those goals include enhancing situational and 
operational awareness; improving information and intelligence 
sharing, both inside DHS and with our partners; modernizing our 
ports of entry, including the expansion of programs and 
technologies to facilitate rapid processing of trade and travel 
through the ports; enhancing cross-border response, recovery, 
and resilience activities and capabilities; and improving DHS's 
resourcing decisions based upon operational needs and projected 
threats.
    Within 180 days of the strategy's release, an accompanying 
implementation plan will be developed that identifies the 
sequence of activities DHS will take to achieve the strategy's 
goals and objectives for the Northern Border.
    These documents will enable DHS to conduct a formal 
capability assessment and requirements generation process 
through the Joint Requirements Council at the Department. This 
effort will guide the Department's approach to making cost-
effective investments that will help make the U.S.-Canada 
border more secure. We will, of course, continue to keep 
Congress informed as this process moves forward.
    I thank you for the opportunity to appear today, and I look 
forward to taking your questions.
    [The joint prepared statement of Mr. Dougherty, Mr. Luck, 
and Mr. Kelly follows:]
Joint Prepared Statement of Michael Dougherty, Scott A. Luck, and Kevin 
                                 Kelly
                           November 14, 2017
                              introduction
    Chairwoman McSally, Ranking Member Vela, and distinguished Members 
of the subcommittee, thank you for the opportunity to appear before you 
today to discuss the Department of Homeland Security's (DHS) assessment 
of threats on the Northern Border and our efforts to ensure its 
security.
    The U.S.-Canada border separates two friendly nations with a long 
history of social, cultural, and economic ties, and a high volume of 
cross-border trade and travel. At 5,525 miles, 1,500 of which are 
shared by Alaska with British Columbia and the Yukon Territory in 
Canada, the border is the longest bilateral land boundary in the world. 
On average, more than 60 million international travelers and 27 million 
vehicles are processed at the more than 120 land ports of entry (POEs) 
and 17 ferry land crossings annually.
    DHS has committed significant personnel to securing the Northern 
Border. More than 2,000 U.S. Border Patrol (USBP) Agents, 4,700 U.S. 
Customs and Border Protection (CBP) Officers, 310 Agriculture 
Specialists, 260 CBP Air and Marine (AMO) personnel, 1,300 U.S. 
Immigration and Customs Enforcement (ICE) Homeland Security 
Investigations (HSI) Special Agents, and more than 8,000 United States 
Coast Guard (USCG) personnel are currently stationed at or near the 
U.S.-Canada border. The Department also continues to invest in force-
multiplying technological capabilities on the Northern Border, 
including sensor networks, surveillance cameras and aircraft, and non-
intrusive inspection systems.
    The Department's personnel work every day with their Canadian 
counterparts and our State, local, Tribal, and Territorial (SLTT) 
partners to ensure the border is secure. We do so by deploying a multi-
layered, risk-based approach to enhance the security of the Northern 
Border, while facilitating the lawful flow of people and goods entering 
the United States. This layered approach to security reduces the 
Department's reliance on any single point or program, and leverages 
close coordination with U.S. interagency partners and with our Canadian 
counterparts to increase the security at our mutual border. Close 
coordination with our partners ensures our zone of security extends 
outward and that our physical border with Canada is not the first or 
last line of defense, but one of many.
Northern Border Threat Assessment
    In response to the reporting requirements set forth in the Northern 
Border Security Review Act (Pub. L. 114-267), DHS delivered a Northern 
Border Threat Assessment report to Congress in August 2017. To 
undertake this assessment, DHS convened a broad working group composed 
of representatives from DHS components with Northern Border-related 
operational mission responsibilities, as well as DHS support 
components. This working group, led by the DHS Office of Strategy, 
Policy, and Plans (PLCY), included representatives from the Office of 
Intelligence and Analysis (I&A), CBP, ICE, USCG, the Science and 
Technology Directorate (S&T), the Domestic Nuclear Detection Office 
(DNDO), the Office of the General Counsel (OGC), the Office of 
Partnership and Engagement (OPE), and the Office of Legislative Affairs 
(OLA). The Joint Requirements Council (JRC) participated as an 
observer.
    The working group developed the assessment through four primary 
methodologies: A formal threat analysis developed by I&A and component 
intelligence elements; an open-source literature review; a component 
data call and interviews; and an expert workshop of Departmental 
subject-matter experts.
    The report describes the current threat landscape on the U.S.-
Canada border, analyzing National security-related and other threats 
across the air, land, and maritime domains. The report also provides a 
high-level description of DHS operational capabilities on the Northern 
Border, including a preliminary assessment of capability gaps and 
challenges in legal authorities; cross-component cooperation; 
coordination between SLTT law enforcement organizations; and 
intelligence sharing.
                            counterterrorism
    The Northern Border Threat Assessment indicates that potential 
terror threats at the Northern Border are primarily from potential 
home-grown terrorists in Canada who are not watch-listed, and who 
believe they can enter the United States legally at Northern Border 
POEs without suspicion. Watch-listed Canadians and third-country 
nationals who are encountered at POEs may be determined to be 
inadmissible and refused entry into the United States. Watch-listed 
U.S. citizens and U.S. Lawful Permanent Residents departing Canada may 
be subject to additional scrutiny at POEs before their entry into the 
United States. Canada has been an effective partner in working with the 
United States to keep foreign terrorist suspects from entering North 
America, especially with initiatives undertaken as part of the 2011 
U.S.-Canada Beyond the Border initiative.
    Most watch-list encounters on the Northern Border occur at air and 
land POEs. Apprehensions of individuals entering the United States from 
Canada between POEs (present without admission from Canada, or PWA-CAN) 
fluctuate year-to-year, but represent a very small fraction of overall 
apprehensions in Northern Border sectors. Of the 2,283 individuals 
apprehended by the USBP in Northern Border sectors in fiscal year 2016, 
only 558 were PWA-CAN, with most of the remainder having crossed into 
the United States across the Southern Border with Mexico. Apprehensions 
of migrants from countries affected by terrorism or conflict who 
illegally cross the border from Canada to the United States are very 
rare.
    The ICE/HSI National Security Investigations Division, National 
Security Unit, Counterterrorism Section (NSID/NSU/CTS), acts as the 
single point of service and coordination for all Joint Terrorism Task 
Force (JTTF) international terrorism investigations. The NSID/NSU/CTS 
also acts as the conduit point for threat streams and coordination with 
Canadian Law Enforcement and Intelligence Agencies in their 
counterterrorism efforts. ICE/HSI JTTF Special Agents and HSI Special 
Agents in Canada continue to collaborate with Canadian law enforcement 
and intelligence services, utilizing ICE/HSI authorities as appropriate 
and advantageous, in investigations to combat terrorist activities in 
North America and abroad.
    Additionally, as part of the Homeland Security Act of 2002, ICE/HSI 
conducts comprehensive visa screening, vetting, and investigative 
activities through the ICE/HSI Visa Security Program (VSP). VSP 
enhances visa security by providing in-depth screening, vetting, and 
investigative capabilities with respect to counterterrorism and 
criminal justice using the formal Department of State (DOS) visa 
application process. Canadian applicants are subject to this program, 
as well as third-country nationals present in Canada who apply for 
visas to the United States. Currently, Canada vets all immigration, 
visa, and refugee applications, screening applicant fingerprints 
against DHS biometric holdings. On average, Canada conducts more than 
400,000 biometric queries against DHS data. In fiscal year 2018, Canada 
will increase biometric collection on all applicants, increasing the 
total number of biometric queries to more than 3 million per year. The 
United States began sending biometric queries to Canada in August 2016.
    The Department works closely with Canada to offer Preclearance 
screening in Calgary, Edmonton, Halifax, Montreal, Ottawa, Toronto, 
Vancouver, and Winnipeg. Under the Preclearance operation, air 
travelers to the United States go through full security screening and 
vetting, and all inspections and admission checks are conducted before 
passengers board the aircraft for the United States. These Preclearance 
operations continue to strengthen our ability to identify terrorists, 
criminals, and other National security threats prior to encountering 
them on U.S. soil. Preclearance operations, now in six countries, place 
the Nation's most effective law enforcement and counterterrorism asset, 
a trained U.S. law enforcement professional, at foreign points of 
departure to protect the traveling public.
    As part of the Beyond the Border Action Plan with Canada, the 
United States and Canada are also in the process of implementing a 
biographic exchange of traveler records that constitutes a biographic 
exit system on the shared border. Today, traveler records for all 
lawful permanent residents and non-citizens of the United States and 
Canada are exchanged in such a manner that land entries into one 
country serve as exit records from the other. The current match rate of 
Canadian records for travelers leaving the United States for Canada 
against U.S. entry records for nonimmigrants is over 98 percent.
             combating transnational criminal organizations
    As part of the National Northern Border Counternarcotics Strategy, 
DHS works closely with Canadian partners to substantially reduce the 
flow of illicit drugs and drug proceeds along the Northern Border. The 
Northern Border Threat Assessment indicates that the most common threat 
to U.S. public safety along the Northern Border continues to be the bi-
directional flow of illicit drugs. This flow is often facilitated by 
transnational criminal organizations (TCOs) operating on both sides of 
the border, with networks that span beyond the United States and 
Canada. In fiscal year 2016, CBP's Office of Field Operations reported 
2,015 arrests at Northern Border land POEs, and 815 pounds in drug 
seizures.
    Reporting indicates that cocaine and methamphetamine move north 
into Canada after transiting the United States from Mexico, while 
smaller quantities of fentanyl, marijuana, and ecstasy flow south from 
Canada into the United States. While Northern Border POE seizures of 
methamphetamine and heroin are low, ICE investigative case reporting 
indicates that trafficking of these drugs are still responsible for 
significant social harm and public health and safety consequences at 
the individual and community levels in specific Northern Border 
communities such as Massena, NY.
    To avoid detection by U.S. and Canadian law enforcement, TCOs 
continually adapt their drug production, smuggling methods, and routes. 
Illegal drugs are smuggled across the border via a number of modes 
including personal vehicles, commercial trucks, buses, trains, vessels, 
all-terrain vehicles, and snowmobiles. TCOs also recruit individuals at 
and between POEs along the length of the border to carry drugs on their 
person.
    While the primary overland smuggling corridors used by TCOs are 
areas in the vicinity of Blaine, Washington; Detroit, Michigan; and 
Champlain and Buffalo, New York, TCOs have also utilized some Tribal 
reservation lands adjoining the U.S.-Canada border. One example is the 
St. Regis (Akwesasne) Mohawk Reservation in New York, which uniquely 
spans both sides of the border and includes numerous waterways and 
unguarded land border crossings, making it a potentially appealing 
point of transit for TCOs to smuggle contraband for further 
transshipment to major metropolitan areas in the United States. ICE/HSI 
and CBP are working with local, State, Tribal, and Federal law 
enforcement agencies to counter this threat, which is complicated by 
the myriad jurisdictions along the border, unique maritime boundaries, 
and short transit distances between the United States and Canada.
    The topography along mountainous parts of the Northern Border is 
occasionally exploited by smugglers flying private aircraft at low 
altitude to evade radar detection, but there are no reports to suggest 
that the tactic is employed on a large scale. Recently, ICE/HSI 
successfully investigated Canadian TCOs that were using helicopters 
capable of landing in remote sections of National forests on both sides 
of the border to smuggle narcotics, bulk cash, and firearms in both 
directions.
    The unique nature of the maritime boundaries between the United 
States and Canada presents challenges for law enforcement operations 
while creating opportunities for TCOs to exploit. High-density 
recreational boating traffic in waterways with shorelines in both 
countries, along with myriad jurisdictions along the border, creates a 
complex detection and enforcement environment. Joint investigations by 
ICE/HSI and the U.S. Drug Enforcement Administration (DEA) in the 
Pacific Northwest show numerous drug smuggling groups using maritime 
routes in the Puget Sound, the Strait of Georgia, and the Strait of 
Juan de Fuca. Maritime drug seizures have occurred over the past 10 
years at numerous locations in the waters between Vancouver, British 
Columbia, and Washington State. The USCG and Royal Canadian Mounted 
Police (RCMP) operate the Integrated Cross-Border Maritime Law 
Enforcement Operation (Shiprider) program, in which personnel from both 
the United States and Canada jointly patrol shared waterways to detect 
and prevent criminal activity, including smuggling. Shiprider is active 
in five locations: Vancouver/Blaine, Windsor/Detroit, Kingston/
Alexandria Bay, Victoria/Port Angeles, and Niagara/Buffalo.
    The Department maintains personnel on both sides of the Northern 
Border to address threats posed by the illegal cross-border flow of 
illegal or illicit goods and controlled dual-use commodities, 
technology, and software. ICE/HSI has six Special Agent in Charge 
offices located in Seattle, Denver, St. Paul, Detroit, Buffalo, and 
Boston that are responsible for overseeing the investigation of 
criminal activity with a nexus to the Northern Border of the United 
States. In addition, ICE/HSI has Attache offices in Ottawa, Vancouver, 
Toronto, and Montreal to facilitate coordination with our Canadian law 
enforcement partners.
                         leveraging technology
    DHS has greatly enhanced its technological capabilities on the 
Northern Border. Between POEs, USBP has deployed Unattended Ground 
Sensors and Imaging Unattended Ground Sensors; Persistent Ground 
Surveillance Systems; Tactical Aerostat Systems; Slash Camera Poles; 
mobile surveillance systems; remote video surveillance systems; and 
Mobile Video Surveillance Systems. AMO has stationed 16 fixed-wing 
aircraft, 24 rotary-wing manned aircraft, and three Unmanned Aircraft 
Systems along the Northern Border to further support surveillance and 
domain awareness activities. Collectively, the information gathered 
from these systems contributes to a greater understanding of border 
activities and enables more timely and effective responses from border 
enforcement entities.
    At many Northern Border POEs, CBP utilizes Radio Frequency 
Identification technology, next-generation license plate readers, 
large-scale and small-scale imaging technologies, as well as a variety 
of portable and hand-held technologies to assist officers and agents 
with identifying threats. CBP also deploys approximately 4,565 pieces 
of non-intrusive inspection and radiation detection equipment to assist 
officers and agents with identifying threats, including concealed 
people and narcotics.
                     partnerships and collaboration
    DHS does not safeguard or operate along the Northern Border alone. 
The Department has significant, on-going collaborative partnerships 
with other Federal and SLTT partners, as well as with our Canadian 
partners. Timely intelligence and law enforcement coordination and 
information sharing with these partners is critical for successful 
Northern Border operations.
    For example, the Cross Border Law Enforcement Advisory Committee 
(CBLE-AC) is a coordination effort designed by its members [CBP, the 
Canada Border Services Agency (CBSA), ICE, the RCMP, and USCG] to 
provide executive-level strategic guidance to cross-border law 
enforcement initiatives involving partnerships between U.S. and 
Canadian law enforcement agencies. The CBLE-AC working group itself 
enables those enforcement teams to report back to a body that allows 
for a de-confliction mechanism. The CBLE-AC provides strategic guidance 
to Border Enforcement Security Task Forces (BESTs), Integrated Border 
Enforcement Teams (IBETs), Integrated Cross-Border Maritime Law 
Enforcement Operations (Shiprider) teams, and other hybrid programs.
    With regard to BEST, ICE/HSI maintains five along the Northern 
Border: Blaine, Washington; Buffalo, New York; Detroit, Michigan; Port 
Huron, Michigan; and Massena, New York. A key success element of this 
program is the full-time co-location of U.S. and Canadian law 
enforcement agencies, including at the Federal State, provincial, 
Tribal, and local levels.
    The BEST program has the authority to cross-designate Canadian law 
enforcement officers as U.S. customs officers under Title 19 U.S.C. 
Sec. 1401(i), permitting them to enforce the criminal laws of the 
United States under the direction of ICE/HSI. These Canadian law 
enforcement officers are provided with ICE/HSI task force officer 
badges and credentials and, upon successful completion of ICE/HSI-
sponsored training, are authorized under the direction of ICE/HSI to 
carry their agency-issued service weapons in the United States, make 
arrests, and execute search warrants.
    In 2017, USBP operationalized the Northern Border Coordination 
Center (NBCC) at Selfridge Air National Guard Base, Michigan. The NBCC 
is the central information repository for the Northern Border to 
enhance intelligence capabilities and address intelligence gaps along 
the Northern Border. The NBCC provides analysis of emerging Northern 
Border threats and disseminates information to all CBP operational and 
intelligence components, as well as other Federal, Tribal, State, and 
local law enforcement agencies and our Canadian law enforcement 
partners, to increase situational awareness and lay down the foundation 
for a Northern Border common operating and intelligence picture.
    Through these and other cooperative programs, such as the IBETs and 
Shiprider, the United States and Canada continue to enhance cross-
border operational effectiveness and facilitate the successful 
investigation and prosecution of transnational criminal conduct.
    CBP is also cooperating with Canada beyond strictly operational 
discussions. CBP's Office of Human Resources Management (HRM) engages 
with Canada bilaterally, and through the Border Five construct, to 
address the most pressing common human resources issues, such as 
recruitment and hiring, work force well-being, resiliency, and employee 
engagement strategies. Through this bilateral engagement, CBP/HRM and 
Canadian Human Resources offices share information, best practices, and 
lessons learned.
    In addition, DHS maintains strong partnerships with several Tribes. 
CBP and ICE/HSI continue to work with our Tribal partners to secure 
travel between the United States and Canada by enhancing the security 
of Tribal identification documents for members of Tribes recognized by 
the Federal Government in order to strengthen border security while 
facilitating legitimate travel. Under a memorandum of agreement, each 
interested U.S. Tribe develops a secure photograph identification 
document to be issued only to the Tribe's legitimate members who could 
be either U.S. or Canadian citizens. These documents can be 
electronically verified by CBP at POEs.
    This September, CBP and the Pokagon Band of Potawatomi Indians 
announced that the Band's Enhanced Tribal Card (ETC) is now an 
acceptable travel document at land and sea POEs. To date, CBP has 
signed memoranda of agreement with 18 Tribes: The Kootenai of Idaho, 
the Pascua Yaqui of Arizona, the Seneca of New York, the Tohono O'odham 
of Arizona, the Coquille of Oregon, the Hydaburg Cooperative 
Association of Alaska, the Suquamish, Colville, Puyallup, Swinomish, 
and Samish Tribes of Washington State, the Fond du Lac of Minnesota, 
the Turtle Mountain Band of Chippewa Indians of North Dakota, the 
Pokagon Band of Potawatomi Indians of Michigan, the Kickapoo 
Traditional Tribe of Texas, the Caddo Nation, Muscogee (Creek) Nation, 
and the Absentee-Shawnee Tribe of Oklahoma.
    DHS also continues to build cooperative law enforcement 
relationships with several Tribes, and to support Tribal participation 
in operational task forces. For example, the Akwesasne Mohawk Police 
Service (AMPS) and the St. Regis Mohawk Tribal Police are robust 
participants in the ICE/HSI-led BEST program and routinely collaborate 
and exchange information with our agencies. Sharing information between 
Tribal police and DHS components facilitates quick responses and a 
safer, more secure Northern Border.
             updating the dhs ``northern border strategy''
    As an outcome of our efforts on the Northern Border Threat 
Assessment report, former DHS Secretary John Kelly directed PLCY to 
update the Department's 2012 Northern Border Strategy.
    The updated strategy is being developed as a whole-of-DHS effort 
and in accordance with the Department's Strategic Planning Guidance. It 
will be a risk-informed strategy, structured as a nesting set of goals, 
objectives, sub-objectives, and outcome statements. Within 180 days of 
the Strategy's release, an accompanying implementation plan will be 
developed, which will be used to ensure that the actions the Department 
takes to execute the Strategy are achieving our desired end-states in a 
cost-effective manner.
    The updated Northern Border Strategy will have three primary focus 
areas: (1) Enhancing border security operations; (2) facilitating and 
safeguarding lawful trade and travel; and (3) promoting cross-border 
resilience.
    We expect to publish the updated Northern Border Strategy in 
January 2018.
                               conclusion
    Thank you for the opportunity to testify about the Department's 
efforts to chart the way forward for the Northern Border.
    We look forward to continuing to collaborate with you as we work to 
safeguard the Northern Border from the threats our Nation faces while 
also ensuring we manage the border in a way that facilitates the 
economic activity critical to our Nation's prosperity.
    We welcome your questions.

    Ms. McSally. Thank you, Mr. Dougherty.
    The Chair now recognizes Chief Luck for 5 minutes.

 STATEMENT OF SCOTT A. LUCK, ACTING DEPUTY CHIEF, U.S. BORDER 
          PATROL, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Luck. Chairwoman McSally, Ranking Member Vela, 
distinguished Members of the subcommittee, it is a privilege 
and honor to appear before you today to discuss the role of 
U.S. Customs and Border Protection in securing our Northern 
Border.
    As America's front-line border agency, CBP is responsible 
for securing America's borders against threats, while 
facilitating legal travel and trade. To do this, CBP has 
deployed a multi-layered risk-based approach to enhance the 
security of our borders, while facilitating the flow of lawful 
people and goods entering the United States.
    This layered approach to security reduces our reliance on 
any single point or program that could be compromised. It also 
extends our zone of security outward, ensuring that our 
physical border is not the first or last line of defense but 
one of many.
    Along the Northern Border, CBP's efforts to pursue 
operational control of the international boundary do not solely 
rely upon a single enforcement tactic, but require a multi-
layered approach to border enforcement and security. This 
strategy encompasses understanding the operating environment 
through situational awareness, attempting to impede and deny 
the illegal cross-border activity, and responding to and 
bringing any incursions to a positive law enforcement 
resolution, including delivering consequences as appropriate.
    The CBP's pursuit of operational control along the Northern 
Border uniquely requires a heightened focus on relationships 
and partnerships with local law enforcement community outreach 
and liaison efforts to increase situational awareness. This 
intelligence-driven approach, which requires a whole-of-
Government leveraging of assets and resources, sees CBP 
accomplishing its border security mission through risk-based 
and targeted joint operations with local, State, Tribal, and 
other Federal law enforcement partners, and will require civic 
engagement in local communities, agile technology, and timely 
information sharing.
    The international boundary with Canada extends over 5,500 
miles, across both land and water, including the border of 
Alaska. It is often described as the longest, common non-
militarized border between any two countries. It separates two 
friendly nations with a long history of social, cultural, and 
economic ties that have contributed to a high volume of cross-
border trade and travel.
    Along the Northern Border, there are large expanses of 
rural and agricultural areas with ready-road access, as well as 
large, open public spaces. Overall, a solid transportation 
infrastructure exists which facilitates ease of access to and 
egress from the border area. These areas present easy border-
crossing points. Thickly forested mountainous areas with 
recreational trail networks also provide avenues and cover for 
those seeking to cross the border illegally.
    CBP has increased partnerships with Federal, State, local, 
and Tribal law enforcement agencies, as well as in public and 
private sectors. Coordination and cooperation among all 
entities that have a stake in our mission has been and 
continues to be paramount. This information sharing increases 
understanding of evolving threats and provides the foundation 
for law enforcement entities to exercise target enforcement in 
the areas of greatest risk.
    As actionable intelligence indicates that there may be a 
shift in threat in smuggling activity from one geographic area 
to another, CBP will adapt and shift resources to mitigate the 
threat. This intelligence-driven approach prioritizes emerging 
threats, vulnerabilities, and risks, greatly enhancing our 
border security efforts.
    U.S. Border Patrol has permanent positions in Canada that 
are strategically located throughout the Northern Border to 
provide the greatest operational benefit. These agents serve as 
CBP representatives in their respective consulates, and serve 
as direct liaisons to Canada Border Services Agency and Royal 
Canadian Mounted Police agencies. The information flow and 
collaboration with our Canadian counterparts provide CBP 
operations and our law enforcement and diplomatic partners with 
a more complete picture of the threats affecting the shared 
U.S.-Canadian border.
    These positions strengthen USBP law enforcement 
partnerships and operational integration with our Canadian 
partners and with the Northern Border sectors, benefiting 
multiple joint operations and supporting multi-agency task 
forces, like the Border Enforcement Security Task Force and the 
integrated border enforcement teams.
    Thanks to the support of Congress, CBP has greatly enhanced 
our technological capabilities on the Northern Border at and 
between our ports of entries. CBP has also committed 
significant personnel securing the Northern Border, including 
over 2,000 U.S. Border Patrol agents, 4,700 office of field 
operations officers, 310 agricultural specialists, and 260 CBP 
air and marine personnel.
    Thank you for the opportunity to testify about CBP's 
efforts to secure the Northern Border while facilitating the 
flow of lawful trade and travel. In closing, I would like to 
thank the men and women of the U.S. Border Patrol who work 
tirelessly to keep America safe. I look forward to your 
questions.
    Ms. McSally. Thanks, Chief Luck.
    The Chair now recognizes Mr. Kelly for 5 minutes.

    STATEMENT OF KEVIN KELLY, SPECIAL AGENT IN CHARGE, U.S. 
    IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Kelly. Chairwoman McSally, Ranking Member Vela, and 
distinguished Members, thank you for the opportunity to appear 
before you today to discuss ICE Homeland Security 
Investigations, HSI's efforts to improve security along our 
Northern Border.
    I am Kevin Kelly, the special agent in charge for HSI in 
Buffalo, New York. I have been in Federal law enforcement for 
29 years. I actually grew up in Buffalo and know these 
communities and the complexities of the Northern Border. I also 
know the problems encountered by other agencies that police the 
Northern Border. Previously, I was assigned to the Southwest 
Border, so I have a unique insight as to how transnational 
criminal organizations, or TCOs, exploit our Nation's borders.
    HSI leverages its broad authority and global footprint to 
secure our borders. We work in close coordination with our 
Federal law enforcement partners, U.S. Customs and Border 
Protection, the U.S. Coast Guard, and with our State, local, 
Tribal, and international law enforcement partners as a force 
multiplier.
    Recently, I met with the sheriffs from St. Lawrence and 
Franklin Counties, the chief of the St. Regis Mohawk Tribal 
Police, and several local police chiefs along the Northern 
Border and New York State, to coordinate investigative efforts 
to combat transnational crime and address the emerging public 
safety concerns. These critical meetings assist HSI in 
addressing our partners' concerns and forge a unified strategy. 
HSI has six special-agent-in-charge offices located along the 
Northern Border that are responsible for overseeing the 
investigation of criminal activity with a nexus to the Northern 
Border. In addition, HSI has four attache offices in Canada to 
facilitate coordination with our Canadian law enforcement 
partners.
    A key and successful element of HSI's initiatives along the 
Northern Border is the participation of our U.S. and Canadian 
partners on the HSI-led Border Enforcement Security Task Force, 
or BEST. BEST is a mechanism to address cross-border crime. HSI 
maintains seven BESTs along the Northern Border, which provides 
a proven and flexible platform to investigate TCOs. BEST task 
force officers undergo stringent training requirements in U.S. 
laws and policies.
    On the direction of HSI, they are given title 19 Customs 
authority, issued HSI task force credentials, and are able to 
enforce U.S. laws. Our Canadian TFOs drive into the United 
States each day with their issued firearm and enforce both 
Canadian and U.S. laws.
    BESTs are successful because they eliminate the 
international border as an obstacle. For example, HSI BEST 
working with Peel Regional Police in Canada and other Canadian 
partners disrupted and dismantled a TCO engaged in cocaine 
smuggling. The investigation resulted in 14 arrests, the 
seizure of 277 pounds of cocaine, 2 tractor trailers, and 3 
handguns. This case represents the largest cocaine conspiracy 
in the history of the western district of New York.
    Another collaborative investigation, Operation Road Soda, 
targeted a tobacco and cocaine-smuggling TCO that resulted in 
56 arrests, 11 international controlled deliveries, 79 executed 
search warrants, and the seizures of $1.8 million in Canadian 
currency and $758,000 in U.S. currency, as well as a variety of 
illicit drugs.
    HSI's National Security Investigations Division coordinates 
all JTTF international terrorism investigations and acts as the 
conduit for threat streams in coordination with Canadian law 
enforcement and intelligence agencies in their counterterrorism 
efforts. Additionally, HSI conducts visa applicant screening 
through the Visa Security Program, or VSP.
    VSP enhances visa security by providing in-depth screening, 
vetting, and investigative capabilities, utilizing 
counterterrorism and criminal justice records to augment the 
Department of State's visa application process. Canadian 
citizens and third-country nationals present in Canada who 
apply for U.S. visas are subject to VSP. Currently, Canada vets 
all their immigration visa and refugee applicants' fingerprints 
against DHS biometric holdings, conducting more than 400,000 
queries against DHS data annually.
    The Northern Border Threat Assessment indicated that the 
most frequent threat to U.S. public safety along the Northern 
Border continues to be bidirectional smuggling of illicit drugs 
and bulk cash by TCOs.
    HSI encounters a variety of distinct TCOs attempting to 
exploit the Northern Border, from outlaw motorcycle gangs, to 
East Indian and Asian organized crime syndicates, as well as 
traditional organized crime.
    One disturbing trend is the increasing importation of the 
potent opioid fentanyl. This dangerous drug is secreted and 
often mislabeled in small international parcels from China. 
Once in the United States, the fentanyl is either left in its 
pure form or mixed with heroin and other drugs and distributed 
with frequently fatal results.
    In closing, HSI is committing to using our unique 
investigative authorities to secure our Northern Border. The 
key to this effort is our continued coordination and 
collaboration with our Federal, State, local, Tribal, and 
international law enforcement partners.
    Thank you for the opportunity to testify and, I welcome 
your questions.
    Ms. McSally. Thank you, Mr. Kelly.
    The Chair now recognizes Dr. Marchand for 5 minutes.

  STATEMENT OF MICHAEL MARCHAND, CHAIRMAN, COLVILLE BUSINESS 
COUNCIL, TESTIFYING ON BEHALF OF NATIONAL CONGRESS OF AMERICAN 
                            INDIANS

    Mr. Marchand. Good morning, Chairwoman McSally, Ranking 
Member Vela, and Members of the subcommittee. My name is 
Michael Marchand. I am chairman of the Colville Business 
Council, the governing body of the Confederated Tribes of the 
Colville Reservation. I am testifying today on behalf of the 
National Congress of American Indians, the National Indian 
organization of which Colville Tribes is a member.
    As independent sovereign governments, Tribes have the same 
responsibilities for public safety and security of their 
communities as States and local governments. Although now 
considered a single Indian tribe, the Confederated Tribes of 
the Colville Reservation is the confederation of 12 aboriginal 
Tribes and bands from across eastern Washington State and 
southern British Columbia, Canada.
    The present-day Colville Reservation is slightly larger 
than the State of Delaware, and covers approximately 1.4 
million acres in north central Washington State. The northern 
boundary of the Colville Reservation is approximately 70 miles 
long and within 30 miles of the U.S.-Canadian border. The North 
Half of the Colville Reservation, which was opened to non-
Indian settlement in the late 1800's, extends northward from 
the existing boundary to the Canadian border. The Colville 
Tribes and its Tribal members retain ownership of more than 160 
tracts of land in the North Half, the largest of which are 
either contiguous to or within 5 miles of the Canadian border. 
The Colville Tribes exercises law enforcement and regulatory 
jurisdiction over these lands, but is not alone in helping 
protect the U.S. borders.
    Tribes are first responders in many Tribal jurisdictions. 
Tribal personnel are the only emergency response entity for 
both the Tribal and non-Tribal community. This includes 
firefighters, law enforcement, and medical emergency response.
    Tribes also protect extensive critical infrastructure. 
There is significant vital infrastructure located on or near 
Tribal lands, including National communication network systems, 
highway and rail lines, and dams, power transmission stations 
and relays, oil and natural gas pipelines, dams, military 
defense facilities, and operations.
    Tribes protect the border from drug and immigration 
smuggling. Approximately 40 Tribes are on or near the U.S. 
international borders and have experienced cross-border drug 
smuggling, including the Colville Tribes.
    Recommendations: At the National Congress of American 
Indians' 2017 annual conference, NCAI's membership adopted 
resolution MKE-17-017, which makes several recommendations to 
improve cross-border issues with Indian communities.
    We suggest that the committee direct DHS to do the 
following: Increase consultation and coordination with Tribal 
governments. The DHS should work to increase compliance with 
Executive Order 13175, which requires each agency to consult 
with Tribal nations. There are dozens of provisions in the 
various DHS authorizations that mistakenly categorize Tribes as 
local governments, and therefore set the wrong legal framework 
for the Federal-Tribal relationship for which Tribal DHS has 
responsibility.
    Directly empower Tribal responders. Currently, Tribes must 
apply for nearly all DHS-granted programs through State 
governments. This is unacceptable. Tribal governments should be 
able to apply directly to and deal directly with DHS. Some of 
these changes are legislative, but many of them are 
administrative. DHS has misinterpreted the one grant Tribes 
have been successful at ensuring direct access, the SHSGP. The 
statute requires that at least or a minimum of 0.1 percent be 
made available for Tribes. DHS, however, has been implementing 
this as a ceiling with a maximum of 0.1 percent made available.
    Create uniformity in DHS's acceptance to Tribal 
governmental identification. There is no consistent agency-wide 
recognition of Tribal governmental identification. This 
oversight can be fixed administratively.
    So I appreciate the opportunity to testify on these issues, 
and I look forward to answering any questions you may have. 
Thank you.
    [The prepared statement of Dr. Marchand follows:]
                 Prepared Statement of Michael Marchand
                           November 14, 2017
    Chairwoman McSally, Ranking Member Vela, and Members of the 
subcommittee, my name is Michael Marchand and I am the chairman of the 
Colville Business Council, the governing body of the Confederated 
Tribes of the Colville Reservation (``Colville Tribes'' or the 
``CCT'').
               background on ncai and the colville tribes
    First, I would like to thank the subcommittee for the opportunity 
to testify today on behalf of the National Congress of American Indians 
(``NCAI''), the oldest and largest American Indian organization in the 
United States, on this critically important topic. Tribal leaders 
created NCAI in 1944 as a response to Federal termination and 
assimilation policies that threatened the existence of American Indian 
and Alaska Native tribes. Since then, NCAI has fought to preserve the 
treaty rights and sovereign status of Tribal governments, while also 
ensuring that Native people may fully participate in the political 
system. As the most representative organization of American Indian 
tribes, NCAI serves the broad interests of Tribal governments across 
the Nation.
    As independent sovereign governments, Tribes have the same 
responsibilities for the public safety and security of their 
communities as States and local governments. Although now considered a 
single Indian Tribe, the Confederated Tribes of the Colville 
Reservation is a confederation of 12 aboriginal Tribes and bands from 
across eastern Washington State and southern British Columbia, Canada. 
The present-day Colville Reservation is slightly larger than the State 
of Delaware and covers approximately 1.4 million acres in north-central 
Washington State.
    The northern boundary of the Colville Reservation is approximately 
70 miles long and within 30 miles of the U.S.-Canadian border. The 
North Half of the Colville Reservation, which was opened to non-Indian 
settlement in the late 1800's, extends northward from the existing 
boundary to the Canadian border. The Colville Tribes and its Tribal 
members retain ownership of more than 160 tracts of land in the North 
Half, the largest of which are either contiguous to or within 5 miles 
of the Canadian border. The Colville Tribes exercises law enforcement 
and regulatory jurisdiction over these lands, but is not alone in 
helping protect the U.S. borders.
    Nearly 40 Tribes are located on or near the U.S. international 
border between Canada and Mexico, and are often the only major 
governmental presence in rural and isolated locations. For this reason, 
Tribal governments have broad emergency and first responder 
responsibilities, as well as extensive border responsibilities with 
immigration and smuggling implications, all integral aspects of 
homeland security.
  indian tribes serve a critical role in securing our nation's borders
Tribes are First Responders
    As touched upon briefly, in many jurisdictions along both borders, 
Tribal personnel are the first and sole emergency response entity for 
both Tribal and non-Tribal communities; this includes firefighters, law 
enforcement, and medical emergency response. Many Tribes have built 
significant emergency management infrastructure with highly-trained 
personnel, and have critical contracts and agreements in place to 
support their non-Native surrounding communities. Several Indian Tribes 
have their own departments of Homeland Security or Emergency Response.
    In addition to preparing for basic first responder duties, Tribes 
also prepare their communities for incidents such as pandemic 
outbreaks. Tribal law enforcement agencies work closely with the 
Department of Homeland Security (``DHS''), the Federal Bureau of 
Investigation, the Royal Canadian Mounted Police, and other U.S. and 
Canadian Federal law enforcement, along with State, local, and 
provincial police services, to secure their territories. The Blackfeet 
Nation is a prime example, and this needs to be encouraged and 
expanded, and of course funded. The fact that Tribal police services 
are often first responders and at times the only responders along parts 
of the Northern Border must be recognized.
Tribes Protect Extensive Critical Infrastructure
    There is significant vital infrastructure located on and near 
Tribal lands including National communications network systems, highway 
and rail lines, dams, power transmission stations and relays, oil and 
natural gas pipelines, and military defense facilities and operations. 
The Fort Berthold Indian Reservation has several Minuteman missile 
launch facilities located within its exterior borders as a strategic 
element of the homeland security system. Also, the Grand Coulee Dam is 
the largest electric power producing facility in the United States and 
is situated on the Colville Indian Reservation, my home.
Tribes Protect the Border from Drug & Immigration Smuggling
    As mentioned earlier, approximately 40 Tribes are on or near U.S. 
international borders; many are in very remote areas of the border. For 
the past decade, the U.S. Federal border enforcement strategy has 
resulted in funneling illegal immigration and drug smuggling into more 
remote areas. Unfortunately, those ``remote'' areas are often Indian 
reservations. The substantial increase in the flow of people and drugs, 
and the subsequent increase in crime and property damage, has been very 
difficult for Tribal law enforcement and Tribal communities to address 
with already limited resources. There has also been an irreversible 
destruction of cultural and religious sites, and adverse environmental 
impacts to Tribal lands.
    The Colville Tribes has dealt and continues to deal with cross-
border smuggling activity from Canada. During the mid- to late 2000's, 
numerous sightings of unmarked fixed-winged aircraft were reported on 
or near the Colville Reservation. In one publicized incident, the 
Colville Tribes' Natural Resources officers and officers of the Tribe's 
police department seized an unmarked float plane from Canada that was 
attempting to smuggle illegal drugs into the United States. After a 
long chase, the officers ultimately captured the pilot and handed him 
over to Federal law enforcement authorities as well as an estimated $2 
million in illegal drugs that had been deposited by the plane. The U.S. 
Border Patrol honored the Tribe's officers who participated in that 
seizure.
    Smugglers have found the Colville Reservation an attractive 
thoroughfare for smuggling activity because of its remote location and 
because at any given time, the Colville Tribe has a few as six law 
enforcement officers (three police officers and three Natural Resources 
Department officers) to patrol the entire 2,275 square-mile Colville 
Reservation. The Tribe has reason to believe that smugglers exploit our 
lack of resources by monitoring our radio frequencies and coordinating 
their activities around our officers' movements.
                             needed reforms
    The need to secure America's borders was prioritized following the 
events of September 11, 2001. These efforts, however, have largely 
failed to consider the Tribal lands and territories that extend beyond 
the arbitrary borders placed throughout those lands. Despite what is 
often a cooperative working relationship on law enforcement issues, the 
DHS, CBP, Canada Border Services Agency, and other U.S.-Canada agencies 
often disregard the concerns of Tribal communities and citizens located 
along the Northern Border.
    On August 21, 2017, more than 70 participants attended a day-long 
Summit, with representation from 19 Tribal leaders from both the United 
States and Canada, to discuss concerns at the United States-Canada 
border. Tribal leaders shared the difficulties they face when crossing 
the border, while touching on many contributing factors, such as the 
unwillingness of border agents to accept Tribal government-issued 
identification documents; excessive interrogation and harassment; 
denial of entry for minor offenses; and the improper handling of sacred 
or cultural items. All in attendance expressed a willingness to 
continue working cooperatively with U.S. and Canadian border officials 
toward strengthening border security, and in a manner that recognizes 
Tribes as equal, sovereign governmental partners.
    The Colville Tribes and other Tribes in Washington State can 
empathize with these concerns. The homelands of the Okanogan and Arrow 
Lakes bands of the Colville Tribes were on both sides of the U.S.-
Canadian border. We have relatives buried on the Canadian side and the 
CCT recently secured a victory in Canadian courts that affirmed the 
rights of Arrow Lakes members to hunt in their traditional territory. 
Despite this, some of our members are prohibited from entering Canada 
based on misdemeanor convictions or other minor offenses. Other Tribes, 
like the Swinomish Indian Tribal Community, have experienced similar 
difficulties when their members seek to enter Canada for ceremonial 
purposes.
    Tribes in the Northwest have also worked themselves to coordinate 
on cross-border issues affecting our First Nations relatives. The Coast 
Salish Gathering, held on September 29, 2017, provided an opportunity 
for U.S. Tribal leaders and First Nation Chiefs, the U.S. Environmental 
Protection Agency, and Environment Canada to build a collaborative body 
for mutual understanding to solve cross-border environmental issues 
facing our shared homelands.
    Also, at its NCAI's 2017 annual conference, NCAI's membership 
enacted a resolution stating that a coordinated, immediate, and on-
going engagement with both the United States and Canadian governments 
is necessary in the following areas:
    1. Improvement of both United States and Canadian (including 
        Alaska) border crossing policies and practices for Tribal 
        citizens;
    2. Improvement of both United States and Canadian (including 
        Alaska) border security training and recognition of Tribal 
        identification credentials;
    3. Implementation of the Jay Treaty provisions in Canada governing 
        border crossing for all Tribal members and First Nations 
        communities and removal of the 50 percent blood quantum 
        requirement in the United States; and
    4. Improvement in education and cultural sensitivity by border 
        agents.
    NCAI Resolution MKE-17-017 (Attached). Against this backdrop, NCAI 
suggests that the committee direct DHS to do the following:
Increase Consultation and Coordination with Tribal Governments
    The DHS must work to increase compliance with Executive Order 13175 
which requires each Federal agency to consult with Tribal nations. 
Further, there are dozens of provisions in various DHS authorizations 
that mistakenly categorize Tribes as ``local governments'' and 
therefore set the wrong legal framework for the Federal-Tribal 
relationship. Instead, such provisions should acknowledge that DHS has 
a trust relationship with Indian Tribes.
Directly Empower Tribal First Responders
    Largely because of the erroneous categorization of Tribal 
governments as ``local'' governments in DHS's authorizations, DHS has 
set up an inappropriate infrastructure whereby Tribes are deemed 
subsets of State governments for most purposes. Not only is this 
erroneous, it is ineffective. DHS has essentially delegated homeland 
security oversight to State governments that have little incentive and 
no legal responsibility to ensure the security of Tribal communities. 
Tribes do not want to be a gaping hole in the Nation's homeland 
security infrastructure.
    Currently Tribes must apply for nearly all DHS grants and programs 
through State governments. This is unacceptable. Tribal governments 
should be able to apply directly to and deal directly with DHS. Some of 
these changes are legislative, but many of them are administrative. DHS 
has misinterpreted the one grant Tribes have been successful at 
ensuring direct access, the SHSGP. The statute requires that ``at 
least'' (or a minimum) 0.1 percent of pertinent funding be made 
available for Tribes. DHS, however, has implemented this as a ceiling, 
with a maximum of 0.1 percent made available.
Create Uniformity in DHS's Acceptance of Tribal Governmental 
        Identification
    Finally, there is no consistent agency-wide recognition of Tribal 
governmental identification. TSA accepts Tribal IDs for domestic air 
travel as long as they have a photo (but they have not yet put this 
into regulations). The Western Hemisphere Travel Initiative (WHTI) 
accepts Tribal IDs for international land border crossing purposes, if 
they have met certain security requirements. DHS has had very 
inconsistent application of these rules. This oversight can be fixed 
administratively.
    In closing, I appreciate the opportunity to testify on these 
important issues and look forward to answering any questions you may 
have.

    Ms. McSally. Thank you, Dr. Marchand.
    I now recognize myself for 5 minutes for questions.
    Chief Luck, I mentioned the 2010 GAO report saying that the 
Northern Border had less than 2 percent operational control. Do 
we have a new and updated assessment on the percentage of 
situational awareness and percentage of operational control at 
the Northern Border? If so, can you share that with us?
    Mr. Luck. I don't think we have one right yet. We are 
working on that to fold into the assessment that the DHS was 
going to provide. We are providing input into that strategy.
    Ms. McSally. Great. Generally, can you say, have things 
improved since 2010? I mean, it is easy to go up from 2 
percent, but--hopefully. I mean, have things gotten more 
challenging? In general, based on what we have done since 2010, 
have we increased our situational awareness and our operational 
control? Is that your sense?
    Mr. Luck. Yes, ma'am, that is my sense. We have put more 
technology on the Northern Border.
    Ms. McSally. Can you talk through kind-of what has happened 
then in order to increase that?
    Mr. Luck. Yes. So we have more RVSS systems in place for--
remote video surveillance systems, mainly around the Canadian--
around the ports of entry. So we are getting more situational 
awareness there. We have radars in the Great Lakes in the 
Buffalo sector where they are pinging off, and we are getting a 
response out to those pings as they traverse the Great Lakes 
and into the United States and those waters.
    I will say that we do lack manpower, as you have noted and 
I have noted as well. We are down about 200 positions on the 
Northern Border, and we are working very feverishly to get the 
Northern Border back staffed up. Our situational awareness we 
need to improve, and we need to have a better response 
capability to our efforts on the Northern Border.
    The intelligence sharing that we have going on is very 
good. We are now building a Northern Border coordination center 
located in Selfridge Air Force Base in Detroit, Michigan. That 
is going to be utilized as an intelligence hub of information 
coming in and intelligence being analyzed by our analytical 
support teams and then being dispersed back out to the sectors 
and the command staff that needs that information.
    So there has been some--they have agent portable systems. 
They have some mobile surveillance equipment. We are trying--
and in the 5-year plan going forward, we want to add more of 
what they have, and to include more detection for maritime 
detection capability, dark--what is the word?--dark aircraft 
for low-flying aircraft, detection capability out there in 
those areas where we see that threat, and as well as more 
detection capability along--and the use of FODs and fiber 
optics that not only helps with our intrusions in our detection 
capability, but also with our communications gaps we have.
    Ms. McSally. Great. Thank you.
    So I want to talk about--I know that your testimony said, 
both Mr. Dougherty and Chief Luck, that the risk of terrorist 
organizations or others coming through the Northern Border is 
not high. But if I am a bad guy and I would like to get into 
America illegally, and I am a part of a terrorist organization, 
and I have the choice of the Northern Border or the Southern 
Border, which one is easier to execute? It would seem to me 
that perhaps it is a little more geographically challenging and 
perhaps due to procedures it would be a little tougher to come 
through the Canada route, but the border is obviously less 
focused on.
    So can you talk about kind-of the vulnerabilities there, 
north versus south? I think one of the reasons we are having 
this hearing is to highlight the potential vulnerabilities in 
the Northern. But, you know, where is it different from the 
Southern Border? Because we talk a lot about the Southern 
Border.
    Mr. Dougherty, do you want to go first, or Chief Luck?
    Mr. Dougherty. Pardon me, ma'am. If I can, I will defer to 
the operators on this question. Thank you.
    Ms. McSally. OK.
    Mr. Luck. I will start by saying that there is a threat on 
the Northern Border. I will be glad to give you a Classified 
briefing on what those threats are. We are well aware of those 
threats.
    Threat isn't commensurate with flow, so we have to be 
cognizant of what those threats are on the Northern Border. We 
rely heavily on our partnerships with our Canadian 
counterparts, our HSI partners, and all State, Federal, and 
Tribal relations that we have.
    The intelligence sharing is one of the best that I have 
seen. I think they do it as good, if not better, than anywhere 
else in the United States in as far as the relationship with 
our Canadian counterparts. But we do have a gap that we need to 
fill as far as that threat stream, and we are working on 
getting the resources and the technology up there to assist 
with that.
    Ms. McSally. Mr. Kelly, you got anything to add?
    Mr. Kelly. Sorry. I will say, you know, having worked both 
the Northern and Southern Border, it is--there are targeted 
areas of smuggling routes. They are going to use the same 
routes that are--specifically have been traditionally 
successful. To say that one is more so than the other, I don't 
know if I would say that. But----
    Ms. McSally. Well, they are different, for sure.
    Mr. Kelly. They are very different, and we do have our 
Achilles heel on the Northern Border for sure, as well as the 
Southern Border.
    Again, to echo what my colleagues have said, that is why we 
rely on our BEST task forces, our Border Enforcement Security 
Task Forces. Quite frankly, HSI can't do that job up there on 
the Northern Border without our State, Federal, and Tribal 
partners. It is critical for our mission. I don't think we do a 
case up there where we don't have a State, local, or Tribal 
officer working side-by-side with an HSI agent or a CBP officer 
to try and deter and detect that flow.
    Ms. McSally. Great. I am out of my time, so I am going to 
now recognize Mr. Vela for questions for 5 minutes.
    Mr. Vela. Thank you.
    Mr. Luck, did I hear you say that the threat is not 
commensurate with the flow?
    Mr. Luck. Yes, sir.
    Mr. Vela. What do you mean by that?
    Mr. Luck. Just because there is a lot of activity on the 
Southwest Border doesn't mean that that should be the focus for 
everything that we do. So there is a threat on the Southwest 
Border and there is a flow issue on the Southwest Border, but 
there also is on the Northern Border that we cannot turn a 
blind eye to, that we need to address.
    Mr. Vela. Yes. I look forward to that Classified briefing 
you mentioned, because there are other questions I think I 
would like to ask, but I will hold off on those.
    Dr. Marchand, in October, the National Congress of American 
Indians adopted a policy resolution expressing its concerns 
about the DHS's on-going operations along the Northern Border. 
There was another resolution adopted shortly after the 
President's Executive Order on immigration enforcement.
    Considering many Tribal nations have members on both sides 
of the border with Canada and many cross regularly for 
cultural, religious, employment, and other purposes, DHS 
operations affect these communities. How would you generally 
grade the government-to-government coordination and 
consultation between DHS and Tribes on the Northern Border? Can 
you elaborate on where you think there is room for improvement?
    Mr. Marchand. I think--my experience has been that it 
varies over time and different personnel sometimes. But I 
think, in general, that probably the communication is not good, 
I wouldn't characterize it as that.
    My Tribes, on initiative, we have set up meetings with our 
local border people. We have been with the Canadian border 
people. We have been less successful in kind of going higher up 
the ladder, I guess. We have had requests out, but no 
responses.
    On a kind-of anecdotal basis, I hear stories of Tribal 
members, in their words, getting harassed at the border for 
different causes, like bringing their powwow regalia or eagle 
feathers, things like that. Usually they tell me they are 
allowed to cross, but they feel like they have been detained 
and questioned unnecessarily long.
    Just at a personal level, I recently crossed the border and 
was held up for about 25 minutes. They said their computers 
were down, they weren't working, but there was indication that 
I had a traffic offense on my own record. They said--and like I 
was trying to think of what that was, and then they were 
accusing me of being a liar. I was really trying to search my 
memory. What did I do, you know? After about 20 minutes, their 
computers came back up, and he says, aha, we found out what it 
is. You had a drunk driving offense when you were 18 years old. 
I said, OK, that was 50 years ago. I forgot about that.
    But things like that, you know what I mean, just more like 
an inconvenience. I wasn't held up permanently, but kind-of 
mostly that kind-of level of thing, I guess.
    Mr. Vela. Don't feel too bad. The mayor of my hometown, 
that exact same thing just happened to him in the Southern 
Border.
    Mr. Marchand. Yes. So--but a probably more serious one is 
we have cross-border like marriages, things like that. Then if 
you commit certain offenses in Canada, you can't go into 
Canada. So we have problems like that where a spouse will have 
to move to the United States or things like that.
    Then it is kind-of complicated, but my Tribe, we have 
traditional lands on both sides of the border. So we have 
cemeteries up there. We have hunting rights up there, fishing 
rights up there. But normal misdemeanor type things will bar 
them from crossing the border, so then they lose those rights 
up there.
    So it seems like there must be a way to fix that better. We 
are kind-of working on that. I think we need to meet more with 
them and kind-of figure out ways to solve these issues, you 
know.
    But right now, they are not solved, especially with 
hunting, because there is--since 9/11, there is a lot of 
concern about firearms and guns, of course. But it is kind-of 
hard to hunt without those, and so those kind of issues are 
there. We don't want to commit terrorist activities, but we 
would like to visit our homeland and shoot an elk or deer or 
moose sometimes. So it is things like that.
    Occasionally, we will get--I forget the question now, but 
we will get other issues of smuggling, but it is not every day. 
But sometimes there will be helicopters or planes, that sort of 
thing, or even people.
    Mr. Vela. So, Mr. Dougherty, following up on that point, 
how does the Department address those cross-border cultural 
issues that are so unique to tribes like Dr. Marchand's?
    Mr. Dougherty. Sir, I think those are important to be aware 
of, both on the Northern and the Southern Border. I will defer 
to the operators as to the level of engagement that they have.
    From a headquarters perspective, the ability to work with 
Tribes is a recognized fact of life in doing anything that goes 
on along the border where they are proximate to it. Our 
instructions to them would be to work cooperatively and in a 
friendly manner with the Tribes to share information and to 
have joint operations take place.
    I think--I was looking, sir, at an interdiction that 
occurred on the water back in early September that involved 
some U.S. citizens who were illegally moving tobacco from one 
place to another. It was a small boat. It was a ship rider 
operation for the Coast Guard. But the number of folks, 
including a local Tribe, that were involved in that 
apprehension, the cooperation that was required in order to 
interdict that vessel and to prosecute it properly indicates 
that we have to be working with all partners, including Tribes.
    So while I defer to the operators on the day-to-day, sir, 
from the Department perspective, they are extremely valuable 
allies in border control.
    Ms. McSally. We can go onto another round if you have got 
some more questions.
    OK. Great. The Chair now recognizes Mr. Barletta from 
Pennsylvania.
    Mr. Barletta. Thank you. Thank you all for being here today 
to discuss the efforts to strengthen our Northern Border.
    This is a very important topic, and I am pleased that we 
now have a partner in the White House who is actively working 
to ensure the safety of the American people, as President Trump 
has clearly laid out a series of essential border and National 
security priorities.
    As we are all aware, the United States is experiencing a 
deadly opioid epidemic that has devastated communities across 
the country. In Pennsylvania alone, drug overdose deaths rose 
by approximately 37 percent in 2016, according to the Drug 
Enforcement Administration. Furthermore, since 2000, more than 
300,000 Americans have died from overdoses involving opioids.
    On the Comprehensive Addiction and Recovery Act, I worked 
across the aisle to help find solutions for this National 
emergency. In my own district, you know, we hosted opioid 
forums where members of the community can come together to 
share personal stories, and law enforcement and the medical 
community can shed light on the dire situation that we are 
currently experiencing. I am encouraged by President Trump's 
recent actions to address this crisis, but there is still much 
more work to be done here in Congress.
    So my question is: Can any of you speak to how the 
Department of Homeland Security is working to combat the flow 
of illegal narcotics from Canada, in particular the smuggling 
of opioids?
    Mr. Luck. I will start, and I can tell you what CBP is 
doing. We are interdictors, both at the ports and between the 
ports, so we are enhancing our counternetwork operations as it 
relates to the networks that are distributing these, and we are 
enhancing our interdictive efforts.
    So we want to disrupt the supply chain of that dangerous 
chemical coming into the United States. So those are the 
operational issues that we are focused on. Last, to make sure 
that if our agents and officers come in contact with this 
dangerous drug, that they are protected from it and what it 
does.
    So getting them the personal protective equipment as well 
as the Narcan and the things that are used to bring somebody 
back from an overdose, getting that in the right hands for our 
special operations officers, our agents, and the people, and 
primarily the folks at the checkpoints that will encounter the 
traveling public more often.
    Mr. Kelly. From the HSI's perspective, we are seeing a lot 
of the fentanyl and carfentanyl and the analogs coming out of 
China. Now, the Chinese have come to the table to try and stop 
some of that from leaving their country, but they need to take 
a more active role as well.
    Another thing that we are seeing is these State and local 
communities are--especially in the north country of New York 
are hemorrhaging with opioid overdoses. It is really taxing. 
The social services is taking away from the police services, 
which is taking away from protecting their communities.
    When I met with Sheriff Wells and Sheriff Mulverhill from 
Franklin and St. Lawrence County, respectively, they echoed 
that concern, that it is a huge problem and so much so that 
they have seen a spike in foster care because parents are not 
allowed--they can't take care of their kids. It is a problem.
    As far as bidirectional flow from Canada, what we are 
seeing is high-grade, hydroponic marijuana coming south into 
the United States and cocaine going north. Recently, we did a 
case where we busted up a ring about a week and a half ago out 
of Syracuse, and they were smuggling--they were going pound for 
pound for heroin and cocaine. It was very lucrative. So that is 
what we are seeing going back and forth through those 
countries.
    Mr. Barletta. This is for anyone at the Department: How is 
Homeland Security working with the Postal Service to improve 
inspection services of packages from Canada?
    Mr. Dougherty. So, sir, we are working on that right now. 
The commission that was run by Governor Christie came out with 
its report November 1. It had 56 recommendations in there.
    One of those recommendations was to ensure that we get 
advanced electronic data on international shipments coming from 
high-risk regions to identify suppliers and distributors in the 
United States. So that effort on our part is underway.
    Of the 56 recommendations, of course, they asked that the 
Department and law enforcement work harder to target drug 
trafficking organizations, and that CBP and the Postal Service 
use new detection capabilities for synthetic opioids. So as you 
know, going into a mail facility with a dog is--you are sort-of 
hoping, but at the same point what we probably need is an 
automated system that can detect opioids in transit. But that 
is an enormous number of packages.
    If I may, sir, it seems to me that having gone to some of 
those meetings on opioids at a fairly high level, the 
President's interest in ending the opioid crisis is maybe one 
of the major things that he thinks and talks about. So it is 
very much a bipartisan effort. He has brought in pharmaceutical 
companies and asked them, what can you do in terms of creating 
an acute pain drug that will not essentially create dependency? 
There is a sort-of a hook on some of these opioids. So how can 
we remove that so we can get the pain treatment levels that we 
need for individuals who are undergoing pain, but it doesn't 
create any neural pathway to dependency. There is a lot of hope 
in that community that they can do something valuable that 
would help end the crisis.
    So there is a lot of energy and interest on that, that--
because as you know, you are not probably going to be able to 
law-enforcement your way out of this. It is going to be what we 
do at the front end when we are treating individuals who have 
acute pain issues.
    Mr. Barletta. Thank you.
    Thank you for calling this hearing.
    Ms. McSally. The gentleman yields back.
    The Chair now recognizes Mr. Correa from California for 5 
minutes.
    Mr. Correa. Thank you, Chair Member McSally and Ranking 
Member Vela. I thank you both for holding this hearing today to 
assess the threat situation on the Northern Border, a topic 
that I have highlighted in committee hearings in the past.
    I also want to thank our witnesses for being here today. I 
look forward to hearing from you where we actually need to 
focus our resources to protect our country and to assure our 
dollars, taxpayer dollars are not being wasted on campaign 
promises.
    With that being said, I am hearing your testimony today, 
and this morning, I picked up the Washington Post. I don't know 
if you picked it up yet. Front page story, ``Mexican 
traffickers making New York City a fentanyl hub.'' You read 
into this story, most of the smuggling is with the use of 
vehicles, folks loading up a truck or a car and driving it 
through. Here it talks about the Mexican border.
    But as I am hearing, Chief Luck, you stated there is a lot 
of ready-road access across the Northern Border, easy border 
crossings. As we delve--these committees delve into the issue 
of smuggling drugs, they are done through ports of entry. If 
you talk to the folks, Southern Border, it is the ports of 
entry. It is not folks putting on a backpack and sprinting, you 
know, or doing marathons. It is trucks, it is vehicles full of 
paraphernalia that drive across the borders.
    If you talk to the folks at San Ysidro, the biggest border 
crossing in terms of volume in the world, what they need over 
there are more personnel, more machines, more dogs, because 
they don't have enough inspectors, assets. So they do the 
random checks. At those random checks, they hit big, big 
shipments.
    I am thinking to myself, gentlemen, do you have the 
resources at the Northern Border to do proper inspections? 
Again, fentanyl, China, Mexico, God knows where else it will 
come from. This is essentially an issue where the bad guys are 
trying to figure out what is the easiest way to score. To me, 
that Northern Border, it is about 5,000, 6,000 miles, biggest 
border in the world, versus 2,000 miles in the south. Same 
terrain, very porous, same challenges.
    So my question to all of you is: What resources do you 
need, of course, to address the issue of more interdiction? 
Also, somewhere there if you can talk about coordination, 
because I believe, like Secretary Kelly said here in prior 
testimony months ago, that if this stuff gets to the border, 
you have essentially lost.
    So how do you coordinate with the Mexicans, the Chinese, 
Canadians, the Tribes in addressing these issues? I open it up 
for anybody who wants to answer those questions.
    Mr. Kelly. I will take it.
    So from my perspective, you are correct. I will tell you 
what we do up in the Northern Border in Buffalo area. 
Everything is coordination with our State, local, and Federal 
partners. Every time we do a fentanyl investigation or we have 
our State and local--and then the one thing about fentanyl is 
it is very volatile. If you encounter it, you have to have 
proper protective gear. You have to have training on how to 
handle it.
    If you are asking me what I need, if you give me more, I 
can do more, because every incident that impacts the----
    Mr. Correa. So if you have more, you can interdict more on 
the Northern Border?
    Mr. Kelly. I can investigate more. Because what happens is, 
when these groups exploit our borders, it falls to HSI to do 
the criminal dismantlement and disruption of that TCO that is 
exploiting our border.
    So right now, my staffing levels are low, but HSI is 
addressing it. But if you give me more, I can do more to 
disrupt those organizations that not only disrupt--that only 
target the Northern Border, but they--what we have seen--and I 
will give you an example.
    Last night, my agents in Buffalo interdicted 513 pounds of 
marijuana that came up from the Mexican border. Why did it come 
up? Because the price of the hydroponic marijuana from Canada 
is getting too high in that area, so now there is a business 
model where people are going to come in and try to undercut the 
hydroponic marijuana coming into the western New York area. It 
is another investigation that we are having.
    We are seeing the Southern Border and the Northern Border 
kind-of struggle with each other. On the Southern Border it is 
one cartel controlling an area; on the Northern Border you have 
multiple TCOs coming together and making an excellent business 
model, coming together, joining forces, and exploiting the 
Northern Border. That is our job to combat that. In that is 
heroin, fentanyl, marijuana, cocaine, and everything going 
bidirectional.
    Mr. Correa. Mr. Luck, in terms of CBP personnel?
    Mr. Luck. Yes, sir, you are right, CBP officers are down 
about 1,500 officers. Border Patrol agents are down about 
2,000. So we are trying to do whatever we can and to--the first 
thing that I would say is that we have a good answer as it 
relates to the Border Patrol with our operational relocation 
program. That just closed. That announcement just closed, and 
we should be sending more people up to the Northern Border to 
get them to staffed to the 2,212 and above that. So that 
resourcing is underway.
    So for the first time we were able to do that and enhance 
and get more Border Patrol agents from the Southwest Border up 
to the Northern Border and then backfill those with trainees 
coming from the Border Patrol Academy. So that is a good news 
story as far as that goes.
    But detection capability and technology is what we need the 
most on the Northern Border, and more of that would help us 
become more situationally aware of what is going on.
    Mr. Correa. Thank you, gentlemen.
    Go ahead.
    Mr. Dougherty. Excuse me, sir, if I could. The strategy 
that we are putting together, which is going to drive 
acquisitions eventually, is going to include lots of input from 
operators, such as the gentleman with us here today, to ensure 
that we are getting capabilities, that if they work down on the 
Southern Border to look into vehicles or to look into 
containers, those things that are going to allow the Department 
to make more seizures is going to be critical.
    So the Joint Requirements Council that exists at the 
Department of Homeland Security, the way that I like to style 
it is the operator perspective drives the investment process 
through transparent activity cross-component identifying gaps 
and needs. We want to avoid error, we want to avoid delays, and 
we don't want to waste money on equipment that doesn't work.
    So you know, as our investments go into buying that 
technology, it is going to be a very rigorous activity on the 
part of the Department to make sure that it is efficacious and 
it is supported by the operators.
    Mr. Correa. Thank you.
    Ms. McSally. The gentleman's time has expired.
    The Chair now recognizes Mr. Katko from New York for 5 
minutes.
    Mr. Katko. I want to thank my colleagues, both of whom are 
from the Southern Border, Vela and McSally, for having this 
hearing. I appreciate very much you shedding light on this 
issue.
    Prior to coming to Congress, I was a Federal prosecutor for 
20 years. I started out in El Paso at the Southwest Border 
Initiative, and I saw first-hand what was going on down there.
    But what shocked me after going through Puerto Rico and 
then--for a couple years, then being up in the Northern Border 
for 16 years is how much of a sieve the Northern Border is. 
That is why I asked for the Northern Border threat assessment 
through legislation, and it confirmed what I knew, that 
virtually none of the border is secure, very little of it is 
secure.
    Then I hear from Mr. Luck today that they are down 200 
positions, but I presume if you got those 200 positions back, 
that you would be up to where you were before and that is 
woefully inadequate to secure the Northern Border. Is that 
right?
    Mr. Luck. That is right. We are still trying to enhance and 
get our agents back up there to where they need it.
    Mr. Katko. I can tell you from my experiences on the 
Northern Border that the problem became so acute in the 
northern district that we had to relocate an office to the 
Northern Border and staff it with multiple prosecutors just to 
handle the flow of alien smuggling cases, drug trafficking 
cases, and cigarette cases.
    It is an incredibly acute problem that--it is hard to 
understand, given what is going on on the Southern Border. But 
I will remind people that there are an awful lot of terror 
targets that live in Canada that have very close proximity to 
the American border and have virtually a free pass to come into 
the United States as well. Is that fair to say, Mr. Luck?
    Mr. Luck. Yes, sir, that is a threat, and having those 
large hubs close to the border within 100 miles and a lot of 
the population nodes is a threat for us. That is why it is 
important to have people in Canada. Those Border Patrol agents 
that are assigned to the consulates are doing very good work in 
relaying information and being at the tip of the spear when it 
comes to that information sharing.
    Mr. Katko. That is critically important of what we are 
doing there. We need to continue to do that. It is no 
indictment on our Canadian counterparts, because we have always 
worked well with them, and I have too, but it is just a very 
difficult situation.
    Mr. Kelly, you are on the front lines up there in Buffalo, 
and your sector also includes the northern district of New York 
where I worked. Is it fair to say that that is still a well-
worn smuggling routes throughout the Northern Border and not 
just the ports of entry?
    Mr. Kelly. Absolutely.
    Mr. Katko. OK. Could you give us just the nature of the 
type of transnational criminal organizations that are up there? 
I mean, I know from my own experience that Hells Angels 
controls not just ports of entries, but, for example, the well-
worn smuggling routes through the Akwesasne Reservation, which 
travels both sides of St. Lawrence.
    So it is not just ports of entry where they are doing the 
smuggling. Is that fair to say?
    Mr. Kelly. That is absolutely fair to say.
    Mr. Katko. Could you give us some ideas and some examples 
of that?
    Mr. Kelly. So what we are seeing is, is the outlaw 
motorcycle gangs are traditional organized crime. They insulate 
and isolate themselves from--and use 1-percenters or associates 
to kind-of move their stuff up into some of the, for example, 
the Akwesasne.
    But, again, I want to stress, in my office in Messina, I 
have a representative from the--the Akwesasne stretches both 
sides. There is the Akwesasne Mohawk Police Service, which 
services Canada, and then there is the St. Regis Tribal, which 
services the United States. Both of them are members of the 
Border Enforcement Security Task Force.
    So we leverage a lot of our partnership with the Tribal to 
go ahead and get that vulnerability. But it is my Achilles heel 
and my AOR for smuggling.
    Mr. Katko. Right. Is it fair to say that when St. Lawrence 
freezes, they simply drive--smugglers will drive across remote 
areas from Canada into the United States?
    Mr. Kelly. Yes. There is an ice bridge, and it is a 
vulnerability with snowmobiles and even vehicles at times going 
back and forth in a free-flow direction of going both in and 
out.
    Mr. Katko. Now, is it fair to say, since the advent of the 
hydroponic marijuana, which is very high-potent, high-quality 
marijuana from Canada, gets as much as $2,500 a pound, and if 
that is coming from Canada into the United States, is it fair 
to say that they have now linked up--Hells Angels and others 
have linked up with Mexican drug cartels to basically exchange 
the hydroponic marijuana for cocaine?
    Mr. Kelly. We have seen an increase in Mexican presence in 
southern Ontario and in Canada. They are now basically cutting 
the U.S. transit shipping routes and basically dealing with 
Canada direct, meaning through either internal conspiracies on 
airplanes or through the seaports, which, as you know, the 
outlaw motorcycle gangs have a big stronghold with the ports, 
the deports.
    Mr. Katko. May I inquire of the Chair, are we going to have 
another round of questioning?
    OK. Great.
    One last point this round. One of the last cases I did was 
a seizure of, I think, 218 kilos of cocaine coming from the 
Sinaloa cartel up through our district, up into Canada. It was 
seized near the border. Is that representative of what you are 
starting to see lately with respect to the drug trafficking?
    Mr. Kelly. Absolutely. I mean, that just happened a week 
and a half ago in Syracuse, you know. We took down about 24 
kilos of cocaine that was basically, like I said before, the 
hydroponic high-grade marijuana coming south from Canada and 
the cocaine going north.
    But what is even more disturbing is you have localized 
TCOs, so these are guys and gals that kind-of get together, 
break off, and form their own localized transcriminal 
organization. They can move a little bit more freely because 
they are not dependent upon the major TCOs that are running the 
border.
    So it is like a subset of TCOs that is operating in those 
local communities, as you know, Syracuse, Oswego, and up and 
down the I-81 corridor in New York State.
    Thank you very much. I look forward to a second round.
    Ms. McSally. Thanks. We are in the second round. I 
recognize myself for 5 minutes. I want to pick up on that.
    Again, just to be clear, you were talking about flow going 
in both directions in the Northern Border. So the stuff that is 
going from the United States to Canada, who is that being run 
by? Is it primarily Mexican cartels that are present in the 
United States, or is it some of these other subgroups?
    Mr. Kelly. What we are seeing is, there is multiple TCOs in 
Canada. So in the Buffalo area responsibility, I have Toronto 
and Montreal, so basically, that accounts for 80 percent of the 
Canadian populations within my jurisdiction of border.
    So there is--after meeting with my Canadian counterparts--
there is Mexican presence that are moving cocaine into Canada. 
There is also----
    Ms. McSally. So just to be clear, Mexican cartel presence 
in the United States in the northern communities moving----
    Mr. Kelly. Right. Well, it is in Canada.
    Ms. McSally. OK.
    Mr. Kelly. So what they have done is essentially cut the 
United States out of having to transship it through the United 
States into Canada.
    Ms. McSally. OK.
    Mr. Kelly. It is like anything. It is a business model. It 
is supply and demand. They demand is in Canada so they are 
going to go ahead and get it. Our Southern Border has been, you 
know, very effective in some parts. So these TCOs need to 
figure out a way to get their drug up into Canada, and up into 
their distribution points. They are business models. They are 
business people. So when they get into Canada, you have 
different organizations like East Asian--I mean, East Indian, 
Asian-organized crime that are basically working together, like 
basic TCOs coming together, like on the Southern Border, the 
Sinaloa Cartel controls this corridor, and you won't get into 
that corridor unless you either pay a fee, or you have a battle 
between struggling cartels. The Northern Border, the TCOs are 
coming together and forming partnerships because they know it 
benefits each other, and it is more economically profitable for 
them.
    Ms. McSally. OK. Great. Thank you.
    Mr. Dougherty, the Northern Border Threat Assessment Act is 
what led to this document and the strategy you are doing. I 
have similar legislation on the Southern Border Threat 
Assessment Act. Can you speak to whether we could use a similar 
one on the Southern Border, and are we going through that 
process as we move our legislation along anyway?
    Mr. Dougherty. Can I give you the standard response? We 
stand by ready to give you technical assistance on any 
legislation that you would like to bring----
    Ms. McSally. But aside from legislative direction for it, 
are you going through, in the Department, a similar Southern 
Border threat assessment similar to what you are going through 
in the Northern Border, or are you waiting for legislation to 
make that happen?
    Mr. Dougherty. I don't know if we are waiting for 
legislation to make that happen. I think what we have got in 
front of us is the Northern Border right now, and that is the 
thing that led us to go to General Kelly and say: You know, 
sir, this thing is 5 years old. We need to update it. So that 
it is focused on the Northern Border.
    Ms. McSally. Got it. Has it been a valuable process? 
Sometimes we tell you guys to do things that take up a little 
time, but it seems that it has been a valuable process for you 
to go through to come to this, you know, this report and then 
the follow-on strategy?
    Mr. Dougherty. Yes. Yes. It is highly iterative. It gets 
the Department to focus on things together. It is, as you know, 
when we go to January and then we have got 180 days, where we 
are going to be looking at the implementation plan and then we 
are off, maybe even thinking about the budget in 2020 at that 
point, it is not as fast as people would like it to be. But I 
think that iterative process and the use of the joint 
requirements council--and it is essentially new to the 
Department per Secretary Johnson when he was here--that slows 
things down, but I think it brings a level of fidelity and care 
to acquisitions that is very useful to the Department.
    Ms. McSally. OK, thanks.
    Chief Luck, what is the biggest technology gap that you 
have on the Northern Border right now?
    Mr. Luck. I would say domain awareness. That is what we 
need the most. We need to be able to see what is coming in, be 
able to detect what is coming in, and then our response 
capability is second to that.
    Ms. McSally. Got it. Do you have any unmanned aerial 
systems operating up there? If so, how many?
    Mr. Luck. We have do have unmanned aerial vehicles up 
there. They are giving us some situational awareness as well, 
and we use them all the time. We have all the Northern Border's 
sectors, with the exception of two that are getting collected 
right now. The others should come on-line this fiscal year, and 
then next fiscal year.
    Ms. McSally. OK, great. You mentioned that coming into 
contact with the Fentanyl can be obviously deadly and 
dangerous.
    I recently talked with some Border Patrol agents in my 
community who mentioned that the line agents don't have access 
to the Narcan, that it is only at the supervisor level; 
whereas, the line agents would be the ones who most likely need 
it for their safety or the safety of others. Is that something 
that is being looked at to shift, because that seems like an 
obvious thing, that they should have it right on them just like 
first responders.
    Mr. Luck. Yes, ma'am. They do. A lot of them do have the--
but there is not enough to go around, and we're purchasing more 
to give to everyone.
    Ms. McSally. Thanks. Ms. Barragan showed up so are you OK 
with me----
    Mr. Vela. Yes.
    Ms. McSally. OK. The Chair now recognizes Ms. Barragan from 
California for 5 minutes.
    Ms. Barragan. Thank you, Madam Chairwoman.
    The Northern Border is home to sovereign Tribal lands, and 
as you mentioned in your testimony, Dr. Marchand, Tribal 
personnel are the first and sole emergency responders for both 
the Tribal and non-Tribal communities, along both borders, 
Tribal law enforcement is struggling to adequately police drug 
traffickers who use their reservations to cross the border.
    Sophisticated traffickers are exploiting lack of Tribal law 
enforcement resources by monitoring the radio frequencies and 
coordinating the activities around officers' movements.
    Do you feel you are getting the resources necessary to 
effectively police illicit border activity?
    Mr. Marchand. Just in general, no, we have very large 
tracts of land, often it is regularly impassable lands, 
mountains, and especially in winter. So very small police 
forces. We have an area, large State, there are times we might 
only have two officers in the whole entire area. We have a 
couple dozen--and we do cooperate with local and drug task 
forces and things, but getting bodies on the ground is real 
difficult. There is not enough funding or people, I guess.
    Ms. Barragan. Is that posing a security threat in not 
having enough people there on the Northern Border there?
    Mr. Marchand. I think it is. I don't know that it is huge 
volumes of drugs, but we do have reports of like planes and 
helicopters, and things like that, that did get in. Then even 
if we knew they were there, it might take an hour for someone 
to even drive there and/or get there, and by that time, they 
are gone.
    Ms. Barragan. What resources would you say are needed by 
the Tribal law enforcement to better combat the drug 
trafficking on the reservation?
    Mr. Marchand. More police officers would be one thing. The 
other thing is there is a lack of communication, 
infrastructure, and so, we kind-of have a bare skeletal system 
out there now, but if we get a natural disaster, like forest 
fires or something, it can wipe out the whole systems in the 
region for extended periods of time. So it is kind-of across-
the-board issues. There is funding and isolation, I guess. A 
lot of the communities are pretty poor, not just Indian 
communities, but we are isolated in rural communities so.
    Ms. Barragan. OK. I apologize if this was already asked, 
but I wanted to go back to, in October, the National Congress 
of American Indians adopted a policy, resolution expressing, 
among other issues, its concern about the Department of 
Homeland Security's on-going operations along the Northern 
Border, considering many Tribal nations have members on both 
sides of the border with Canada, and they cross regularly for 
cultural events, religious events. I am curious on how the DHS 
operations are affecting the communities. I read about the NCAI 
resolution adopted last month that made a mention of, 
``excessive interrogation or harassment, denial of entry for 
minor offenses, and the improper handling of sacred or cultural 
items.''
    Can you describe to the subcommittee what is going on, and 
how DHS can better address these concerns?
    Mr. Marchand. I guess I will start off by saying I think 
things have improved. So I think there are protocols in place, 
you will be asked specific questions, do you have sacred 
objects or feathers, and that is kind-of standard statements I 
will ask when we cross the border. So I think things have 
gotten better. But also, it gets down to individual personnel, 
you know, staff turns over and changes. So I think there is 
always a need to keep constantly retraining people and 
reintroducing it. It is not something where you do one training 
and then it is fixed forever. It doesn't work like that, and 
you need to keep it up, the cultural-sensitivity type things, I 
guess.
    Ms. Barragan. If there was one thing that you think DHS or 
that this committee could do to help the situation that you 
deal with, what would you say that is?
    Mr. Marchand. One of our pressing issues right now is just 
ID cards getting across the border. We are in the process of 
nearing completion of our new Tribal IDs, but those things are 
kind-of a barrier. Some of our people will get passports, 
things like that, which I think are the best, but they cost 
some money, and a lot of our people don't have jobs or money. 
So even our Tribal ID cards, we are going to be charging some 
money for the enhanced ones. That is kind-of a barrier. Maybe a 
few hundred dollars isn't a lot for the average American, but 
if you are out of work, it can be a lot of money. So those 
types of things are a problem.
    Ms. Barragan. Thank you. I yield back.
    Ms. McSally. The Chair now recognizes Mr. Vela.
    Mr. Vela. Yes, this is probably something for Mr. Dougherty 
or Mr. Kelly to address. I became curious as we were sitting 
here about the whole idea of terrorist threats in the Southern 
and the Northern Borders. I really am not in a position to know 
whether what I am about to read is reliable or not, but I ran 
into this.
    It says ``Southern FBI terrorists Screening Center, monthly 
domestic and counter reports dating from April 2014 to August 
2016, detailed a number, type, and location of encounters with 
known or suspected terrorists across the United States. The 
encounters are based on information in various watch list 
databases, and all seven reports the numbers of encounters land 
border crossings were higher in northern States than in 
southern States.''
    Do you care to address that?
    Mr. Kelly. I mean, like anything, his, we work with our 
Joint Terrorism Task Force. I have agents assigned there full-
time. There is an information flow. I guess I am not 
understanding the full context of the question, but can you----
    Mr. Vela. Well, it is a report that I ran into on-line, and 
I was just curious if you had access to that same information?
    Mr. Kelly. We do. We have a very good information flow with 
our Canadian partners, especially on the counterterrorism side. 
We meet with the FBI monthly. I have intel people that are--the 
information is flowing back and forth between us and the 
Canadians. That much I can tell you. It is one of those things 
that happens, it happens daily up there.
    Mr. Vela. Well, maybe this is something that we can best 
address in that Classified setting.
    Mr. Kelly. Right. There is a lot of high-side stuff we 
can't get into here, but I can assure you it is being done by 
both us and our Joint Terrorism Task Force partners.
    Mr. Vela. Thank you.
    Ms. McSally. The Chair will now recognize Mr. Katko for 5 
minutes.
    Mr. Katko. Thank you, Chairman. Getting back to a couple of 
things here.
    First of all, Mr. Dougherty, in the Northern Border Threat 
Assessment, it gives some statistics as to the seizures on the 
Northern Border. Is that fair to say, without getting into the 
details?
    Mr. Dougherty. I am sorry, sir?
    Mr. Katko. It gives some statistics as to the amount of 
drug seizures on the Northern Border?
    Mr. Dougherty. I believe that is correct. Yes, sir.
    Mr. Katko. Do you know if that takes into account any 
seizures that happens south of the border in the inland of New 
York State, for example, or elsewhere, that are attributed to 
the border seizures?
    Mr. Dougherty. I can't answer the question because I don't 
know. I assume that we are basically just looking at activities 
that are occurring in the operational area of the border and 
the POEs.
    Mr. Katko. Thank you.
    Now, Mr. Kelly, with respect to the seizures, I take it you 
have been involved in many cases, as have I, where the vast 
majority of drug seizures along the Northern Border happened 
past the border, is that fair to say?
    Mr. Kelly. That is fair to say.
    Mr. Katko. Give us some examples. I gave you one of 218 
kilos of cocaine. You gave me another one of 34, but how often 
do seizures that are border-related happen at the border 
compared to certain ones that happen----
    Mr. Kelly. It varies on the kind of investigation that we 
are doing, but I know our State and local partners are running 
into it a lot as well.
    Like I said before, we work jointly with them, and our job 
is to kind-of build that conspiracy and build that case against 
that TCO exploiting it, but it does happen on a fairly regular 
basis. Again, it is my Achilles Heel, not knowing everything 
that comes on and off, the Akwesasne at any given point. But, 
again, we have made some great inroads with our Tribal police. 
We have made some great inroads with the elders and the 
Tribals. I met with the subchief and I have recently been 
invited to Tribal Council to try and foster a better 
relationship with law enforcement.
    Again, I can't do that without my partnerships with the 
Tribal.
    Mr. Katko. Yes. I appreciate what you are saying about the 
Akwesasne. Again, it straddles both sides of the Saint Lawrence 
River, which straddles the Canadian-U.S. border. While the vast 
majority of people on the Akwesasne are great law-abiding 
people, there is a significant minority within the Akwesasne 
that are involved in the drug trafficking, alien smuggling, and 
the gun running, and every other darn thing up there. I mean, I 
remember going down rivers on Border Patrol boats and looking 
at a series of modest homes on the reservations interspersed 
with multimillion-dollar mansions, which clearly were made with 
drug trafficking.
    To Dr. Marchand's point with jurisdictional issues under 
American law, usually if the house was built with drug 
trafficking money, you could seize the home, but you can't on 
the reservation. You can seize the home but you can't seize the 
land. So you can't do anything about it.
    So it raises unique law enforcement problems for us on the 
Northern Border that I am not sure like that anywhere else in 
the country.
    Is it fair to say--I want to drill down a little bit 
farther, on the drug trafficking routes--well on drug 
trafficking routes on the Akwesasne, but elsewhere on the 
Northern Border; are they also being exploited by alien 
traffickers?
    Mr. Kelly. Yes.
    Mr. Katko. Can you give us some examples of some of the 
alien cases? Like I did one, for example, where they seem more 
ethnically-based than they do on the Southern Border.
    Mr. Kelly. Right.
    Mr. Katko. For example, Eastern European folks come in----
    Mr. Kelly. We had a Polish smuggling ring in Buffalo----
    Mr. Katko. Right.
    Mr. Kelly [continuing]. Exactly the same thing, that was 
exploiting the openness of the Akwesasne. I know out West they 
had the same situation in Detroit as well, where they were 
exploiting some of the open borders to move back and forth to 
the countries.
    Mr. Katko. Is that a concern to you, the alien smuggling?
    Mr. Kelly. It is.
    Mr. Katko. Why?
    Mr. Kelly. It is a concern because it is movement of people 
that we don't know who they are or what they are or why they 
are coming or why they are going. It is a disturbing trend. In 
my experience, most alien smugglers will stay to their true 
tested routes and standards and methods and, you know, they 
tend to stay the course on their smuggling routes.
    Mr. Katko. Now, with the development of more of the Mexican 
cartels locating in Canada, is there concern from any of you, 
Mr. Luck perhaps, or Mr. Dougherty, or any of you, that as we 
put more pressure on the Southern Border and as they try and 
secure the Southern Border, that there is going to be more 
transshipment of drugs and humans through the Northern Border?
    Mr. Luck. Yes, it is. We see more and more links now from 
the Southwest Border to the Northern Border. So, there is 
connections there. We run cases with his on those ones that are 
transporting criminal aliens and narcotics from the Southwest 
Border into those areas close to the Canadian border, and have 
hubs designated for that purpose.
    It is important that we share that information. That is the 
reason why we are starting up that Northern Border Coordination 
Center, to link all of those things together so that as this 
keeps going forward and we get more and more of this traffic 
connected to the Southwest Border, we can exploit that, and we 
can address it.
    Mr. Katko. The last question that I will ask--and I 
appreciate your indulgence, Chairman--obviously, lack of 
adequate personnel on the Northern Border, to me, pretty acute, 
and I saw it for years. Wave a wand. This is your moment to 
give your ask. What is your ask for the Northern Border as far 
as personnel and equipment and surveillance, and what have you?
    Mr. Luck. I would like to get more----
    Mr. Katko. Don't tell me build a wall.
    Mr. Luck. You won't hear that from us.
    Mr. Katko. OK. All right.
    Mr. Luck. We would like to get more technology up there. We 
would also, and I would be remiss if I didn't say, we have 
facility issues on the Northern Border.
    There is facilities that have been woefully neglected over 
the past 10 years. Niagara Falls in your district, Niagara 
Falls, and Champlain stations, they are in vast need of repair 
and new facilities.
    So those are the things that go first. To give the agents 
somewhere to go to to work out of is important, and to have the 
systems that they can run checks with. In those areas, they are 
bursting at the seams in some of those areas, and they are not 
adequate for what we need. So that, personnel, and technology 
is what we need on the Northern Border.
    Mr. Katko. Anyone want to add anything else?
    Mr. Kelly. Like anything, sir, I could use more 
investigative groups, more appropriations, and direct line 
funding for us to get equipment. Like, for example, TruNarc is 
a system we use to identify drugs without having to touch it. 
You know, those run anywhere from $50,000 to $75,000 just for 
one unit. What that does is it stores all the analogs and it is 
a PPE, it is an officer safety thing. So like anything, and I 
keep echoing this, if you give me more, his can definitely do 
more.
    Mr. Katko. OK. Thank you. Of course, you could use more 
prosecutors, right? Right?
    Mr. Kelly. That is the back end of it, sir, is we have to, 
you know, and you know better than anybody, we have to 
prosecute the people that we arrest.
    Mr. Katko. Yes.
    Mr. Kelly. That is another issue.
    Mr. Katko. Well, I appreciate the Chairwoman's indulgence. 
This is an issue that I have seen for front line for a long 
time and it is not going away. As we put more pressure on the 
Southern Border, I think the Northern Border is going to be 
more of an issue. Let's not forget the Millennium bomber came 
through Canada, Vancouver, into the United States, and there 
have been many other threats on our Northern Border. There is 
the CSX train that was targeted from Montreal to down to New 
York City for a terrorist act not too long ago, and many, many 
others. So we have to recognize that the Northern Border is a 
threat just like the Southern Border is. I would argue, in some 
respects, because of its lack of attention, it is more of a 
threat. With that, I yield back.
    Ms. McSally. The gentleman's time is well expired.
    I want to thank the witnesses for their valuable testimony, 
and the Members for their questions.
    Members of the committee may have some additional questions 
for the witness, and we will ask you respond to these in 
writing. Pursuant to committee rule VII(D), the hearing record 
will be held open for 10 days.
    Without objection, the committee stands adjourned.
    [Whereupon, at 11:24 a.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

    Questions From Ranking Member Filemon Vela for Michael Dougherty
    Question 1a. As you know, section 102(c) of the Illegal Immigration 
Reform and Immigrant Responsibility Act of 1996 (``IIRIRA''), as 
amended, gave the Secretary of Homeland Security authority to waive 
laws to expedite the construction of a border wall.
    Is it the Department's judgment that the Secretary continues to 
have authority to waive all laws to build a border wall? Does this 
authority extend to sovereign Tribal lands as well?
    Question 1b. Does the Department intend to do so? Please explain.
    Answer. Section 102(a) of IIRIRA remains in effect and authorizes 
the Secretary to construct ``physical barriers and roads (including the 
removal of obstacles to detection of illegal entrants) in the vicinity 
of the United States border to deter illegal crossings in areas of high 
illegal entry into the United States.'' Section 102 does not 
specifically exclude any land, including Tribal land, from coverage, 
provided such land is ``in the vicinity of the United States border.''
    Section 102(c) of the IIRIRA also remains in effect and authorizes 
the Secretary to ``waive all legal requirements [the] Secretary, in 
[the] Secretary's sole discretion, determines necessary to ensure 
expeditious construction . . . ''. Thus, the Department does believe 
that the Secretary has the necessary authority. The President has 
requested funding for construction of additional barriers and roads in 
the vicinity of the border. If Congress provides such funding, the 
Department will assess whether expeditious construction of those 
barriers or roads warrants requesting the Secretary to issue waivers of 
legal requirements as authorized by section 102(c).
    Question 2a. The legislation that mandated the Northern Border 
Threat Analysis requires the Secretary to examine in its report to 
Congress, among other factors, the technology needs and challenges as 
well as the personnel needs and challenges along the Northern Border. 
However, the report does not provide specifics as to what kind of 
technology is needed on the Northern Border or how many additional CBP 
officers are needed at our Northern Border ports of entry.
    Why were these requirements not included in the report? Do you 
believe the report fulfills the statutory mandate?
    Answer. The report notes that technology that improves domain and 
situational awareness is a general capability need for the Northern 
Border. The report also describes personnel challenges on the Northern 
Border. However, to make fiscally sound investment decisions that 
improve security on the Northern Border, the Department elected to 
first update our Northern Border Strategy and write an implementation 
plan. As part of that process, DHS intends to conduct an analysis to 
identify gaps to achieving the Strategy's defined end-states and 
recommend specific actions needed to fill them. Recommendations may 
include additional personnel, new technology, doctrine changes, or 
other measures.
    Question 2b. How many additional CBP officers are needed to fully 
staff CBP ports of entry on the Northern Border?
    Answer. As of December 9, 2017, 97 percent of the authorized CBP 
officer positions on the Northern Border were filled. This equates to 
only 130 unfilled CBP officer positions across the entire Northern 
Border. However, there are key ports and stations, especially in Maine, 
Minnesota, Montana, North Dakota, and Vermont that have faced staffing 
challenges.
    In an effort to fill staffing gaps along the Northern Border, 
recruitment incentives have been approved for the following Northern 
Border locations: Jackman/Coburn Gore and Houlton, Maine; Grand 
Portage, Minnesota; Sweetgrass and Raymond, Montana; Massena, New York; 
Pembina and Portal, North Dakota; Beecher Falls and Norton, Vermont; 
and Oroville, Washington. Relocation incentives can technically be used 
for positions anywhere, but they have primarily been used for positions 
at Northern Border locations with staffing challenges.
    Question 3. The report states that an updated Northern Border 
Strategy will be delivered 180 days from the issuance of the June 
report. Will the strategy be delivered on time?
    Answer. As DHS leadership has indicated in previous testimonies to 
Congress, DHS intends to have a final version of the Northern Border 
Strategy completed in January 2018. However, public release of the 
document may take longer, depending on clearance processes. Upon 
request, DHS will offer Congressional briefings once the strategy is 
complete.
      Questions From Ranking Member Filemon Vela for Scott A. Luck
    Question 1a. The Northern Border Threat Analysis details some of 
the same challenges facing agents in the Southern Border, such as 
terrain, weather, and remoteness. There are also communications issues 
and greater gaps in domain awareness due to limited surveillance 
capabilities across the vast Northern Border. These gaps are largely 
due to a lack of personnel, technology, and infrastructure on the 
Northern Border as compared to the Southern Border, where we have 
invested billions of dollars in cameras, sensors, radar system, 
physical barriers, and additional agents in recent years.
    With TCOs and other adversaries constantly evolving, at what point 
does it make sense to stop dedicating virtually all our border security 
resources to the Southern Border and begin addressing Northern Border 
vulnerabilities?
    Answer. The U.S. Border Patrol (USBP) evaluates all threats to the 
borders and prioritizes the deployment of available resources to areas 
of highest risk, not to a specific geographic area such as Northern 
versus Southern Border. Because the frequency and severity of cross-
border illicit activity along the U.S.-Canadian border is very low 
compared to cross-border illicit activity along the U.S.-Mexico border, 
resources deployed to the Northern Border are focused more on 
increasing our situational awareness and detection capability through 
investments in surveillance, sensors, and geospatial capabilities than 
on impedance and denial and enforcement assets between ports of entry.
    The USBP continues to invest in Northern Border operations albeit 
to a lesser extent than the Southern Border; it is commensurate with 
what we know to be the threat today. We have expanded strategic 
partnerships with State, local, and foreign law enforcement agencies. 
This includes establishing and staffing the Northern Border 
Coordination Center (NBCC). USBP has increased domain awareness 
technology such as radar and cameras and will continue to assess and 
better understand the Northern Border's potential for risk, based on 
identified vulnerabilities and associated threats. Should threat 
profiles change, or exigent circumstance exist, the USBP retains the 
ability to surge into areas where and when needed through increased 
investment in impedance and denial and enforcement resources.
    Question 1b. Have you considered fencing, walls, or any physical 
barriers for the Northern Border?
    Answer. CBP is considering all options, including fencing, walls, 
and physical barriers for use on the Northern Border. Note that any 
physical barrier constructed along the U.S.-Canada land border must not 
interfere with the 6 meter (20 foot) clear vista maintained under 
treaty by the International Boundary Commission.
    Question 1c. Why or why not?
    Answer. The demonstrated effectiveness of walls or wall systems 
along the Southern Border makes them a potential solution for any part 
of the border where impeding or denying illicit cross-border activity 
is an operational requirement. When assessing the need for barriers at 
or along the Northern Border, the USBP will apply the same level of 
analysis and rigor as it did along the Southern Border, and deploy 
barrier solutions at those locations where they make sense. Similarly, 
we must assess the ability of other solutions (e.g., technology, 
signage, and improved communications) to improve border security as 
well. Typically, we have found that there is no single solution to 
border security. Border security requires an array of capabilities 
provided by an appropriate mix of technology, infrastructure, and 
personnel. However, risk-based approaches to deploying resources are 
essential, and the resources must first be directed to areas of the 
border where threat, risk, and activity levels are most immediate. 
While this focus is not intended to diminish the nature of the threat 
we face on the Northern Border, the relatively high levels of activity 
on the Southern Border, combined with resource limitations, continue to 
require a focus on the Southwest Border.
    Question 2a. One significant difference along our Northern Border 
is the partnership U.S. law enforcement has with Canadian counterparts, 
including the Royal Canadian Mounted Police (RCMP) and Canada Border 
Services Agency (CBSA).
    How would you characterize Border Patrol's relationship with the 
RCMP, CBSA, provincial police, and other Canadian counterparts?
    Answer. The USBP maintains close collaborative relationships with 
RCMP, CBSA, provincial police, and other Canadian law enforcement 
counterparts.
    The USBP employs regional representatives in Canada to enhance 
existing efforts to close and mitigate information and intelligence 
gaps along the shared international border. USBP regional 
representatives coordinate bilateral law enforcement efforts through 
U.S. consulates and the U.S. embassy and engage with Canadian agencies 
on securing the shared border.
    The Cross Border Law Enforcement Advisory Committee (CBLEAC) 
further enhances bi-national cooperation. The CBLEAC provides 
executive-level guidance to cross-border law enforcement initiatives 
involving partnerships between United States and Canadian law 
enforcement agencies along our shared border. The core partners of the 
CBLEAC are CBP/USBP, U.S. Immigration and Customs Enforcement-Homeland 
Security Investigations, U.S. Coast Guard, RCMP, and CBSA.
    Question 2b. Can you describe what the day-to-day interaction is in 
the field between Border Patrol's Northern Border sectors and law 
enforcement on the Canadian side?
    Answer. The Border Patrol's area of operation (AOR) along the 
Northern Border is divided into eight sectors that encompass the States 
along the Northern Border and Great Lakes: Blaine, Spokane, Havre, 
Grand Forks, Swanton, Detroit, Buffalo, and Houlton Sectors.
    Through liaison activities and intelligence sharing, USBP sectors 
have worked closely with Canadian law enforcement agencies for decades. 
Relationships were forged through years of working closely together 
along the shared border between the United States and Canada. The USBP 
sectors work in conjunction with our CBP regional representatives in 
Canada to establish, develop, and maintain open communications and 
mutual respect between foreign and domestic law enforcement 
counterparts.
    USBP sectors are also integral members of the Integrated Border 
Enforcement Teams (IBET) along the Northern Border. The IBET mission is 
``to enhance border integrity and security at our shared border between 
the ports of entry by identifying, investigating, and interdicting 
persons and organizations that pose a threat to national security or 
are engaged in other organized criminal activity.''
    IBETs are multi-disciplinary, multi-agency intelligence-driven 
enforcement teams. They work in land, air, and marine environments 
``between the ports of entry'' along the Canada/United States border 
while respecting the laws and jurisdiction of each nation. While the 
focus is ``between the ports'' they work closely with Canada Border 
Services Agency (CBSA) personnel at the ports of entry''.
    Question 2c. How is your current information sharing and 
cooperation with Canadian counterparts?
    Answer. Information sharing and cooperation with Canadian 
counterparts is robust and strong, but the United States and Canada are 
continuously working to make improvements where they are needed. The 
Department of Homeland Security (DHS) regularly coordinates with its 
Canadian partners to share information, including information on those 
who pose a threat to either country. The United States and Canada are 
working toward full implementation of the third phase of the Entry/Exit 
program, which exchanges biographic entry data on travelers in the land 
environment so that documented entry into one country serves as an exit 
record from the other country. While the program currently applies only 
to all third-country nationals at the U.S.-Canada land border, it will 
be expanded to include U.S. and Canadian citizens once the necessary 
legislation is passed in Canada. In addition, pursuant to the Visa and 
Immigration Information Sharing Treaty, the two countries share 
biometric and biographic visa and immigration information on third-
country nationals. Canada queries all asylum, refugee, and visa 
applicants against U.S. biometric information, thereby providing a 
greater amount of information with which to make a decision.
    The U.S. Border Patrol (USBP) leverages U.S. Customs and Border 
Protection (CBP) representatives in Canada to enhance existing efforts 
to close and mitigate information and intelligence gaps along our 
shared land border. Currently, there are six Border Patrol agents 
posted as CBP representatives in Canada (Toronto, Winnipeg, Vancouver, 
Montreal, and Ottawa). USBP agents are embedded with the Royal Canadian 
Mounted Police (RCMP) and Canada Border Services Agency (CBSA) as they 
represent CBP during engagements with Canadian agencies related to the 
shared land border between designated Ports of Entry (POEs). Other 
agencies, including United States Citizenship and Immigration Services 
(USCIS) and U.S. Coast Guard, also have employees embedded within 
Immigration, Refugees, and Citizenship Canada and the Royal Canadian 
Mounted Police respectively.
    U.S. Immigration and Customs Enforcement (ICE) Homeland Security 
Investigations (HSI) maintains four offices within Canada (Ottawa, 
Toronto, Montreal, and Vancouver) with a current presence of 17 total 
positions (including Special Agents and support staff). These offices 
regularly liaise with Canadian Federal, provincial, and local agencies 
to support ICE HSI domestic investigations with ties to Canada, as well 
as to promote joint bilateral investigations with a goal to disrupt, 
dismantle, and deter illicit trade, travel, and finance perpetrated by 
transnational criminal organizations and/or individuals that threaten 
the National security and economic integrity of both countries. Within 
Canada's national capital of Ottawa, ICE HSI is currently the only U.S. 
law enforcement agency that maintains a part-time liaison position 
assigned to the RCMP's National Child Exploitation Coordination Centre, 
and ICE HSI also maintains a part-time presence within the RCMP's 
Border Integrity Unit along with representatives from USBP and U.S. 
Coast Guard (USCG). In addition to regular interaction with Canadian 
partners, all four ICE HSI offices are actively involved in several 
task forces, working groups, and integrated teams established within 
their respective regional areas of responsibility that exist to 
prioritize and target significant threats such as the fentanyl/opioid 
epidemic, the on-line exploitation of minors, and transnational 
organized crime groups.
    ICE HSI in Canada will also at times serve as a liaison between ICE 
Enforcement and Removal Operations (ERO) and CBSA pursuant to the 
facilitation of individuals being removed from the United States to 
Canada following the completion of removal proceedings in the United 
States. ICE ERO and CBSA will often exchange information in regards to 
changes to detention/removal policies and procedures, inland 
enforcement statistics, as well as challenges and best practices when 
engaging with recalcitrant countries for removals.
    The United States and Canada are working to expand joint law 
enforcement initiatives along the border. To this end, a Cross-Border 
Law Enforcement Advisory Committee (CBLEAC) was created in 2015 and 
continues to meet bi-annually, to provide executive-level guidance to 
all cross-border law enforcement initiatives involving partnerships 
between United States and Canadian law enforcement agencies along our 
shared border. CBLEAC is designed to allow flexibility and unity of 
effort in a resource-constrained environment. CBLEAC services all 
cross-border law enforcement groups, task forces, teams, and units that 
are created by joint partnerships between the core agencies (CBP, U.S. 
Immigration and Customs Enforcement (ICE), U.S. Coast Guard (USCG), 
RCMP, and CBSA) and other stakeholders in the law enforcement 
community, including other Federal, State, provincial, Tribal, local, 
and municipal agencies.
    ICE HSI also deploys numerous Border Enforcement Security Task 
Forces (BESTs) to land, seaport, and airport POEs. Created by ICE HSI 
in 2005, BESTs use a collaborative approach to identify, disrupt, and 
dismantle transnational criminal organizations by co-locating and 
cross-designating investigative assets of Federal, State, local, 
Tribal, and international law enforcement partners at key locations on 
the border. There are 57 BESTs Nation-wide, comprised of over 1,200 
members from over 150 law enforcement agencies. Currently, ICE HSI has 
5 BESTs along the Northern Border in Blaine, Washington; Buffalo, New 
York; Massena, New York; Detroit, Michigan; and Port Huron, Michigan. 
These 5 BESTs consist of over 100 participants. In addition to Federal, 
State, local, and Tribal agencies, each of these BESTs includes 
Canadian law enforcement partners.
    Additionally, there are 12 Integrated Border Enforcement Team 
(IBET) regions operating along the Northern Border. IBETs, comprised of 
both U.S. and Canadian personnel, enhance shared border integrity and 
security between designated POEs by providing a mobile and integrated 
interdiction response capability. Each IBET enhances border security by 
identifying, investigating, and interdicting individuals and 
organizations that pose a threat to National security or are engaged in 
other organized criminal activity, such as drug trafficking. IBETs are 
comprised of representatives from five core agencies with law 
enforcement responsibilities at the shared border: ICE, CBP, USCG, 
RCMP, and CBSA. IBETs are an interdiction-based, coordination mechanism 
where the member agencies meet frequently to de-conflict targets, plan 
joint operations, conduct joint training, and interact. They can also 
activate mirror patrols for interdiction as deemed appropriate or 
required.
    In addition to these efforts, the USCG and RCMP collaborate under 
the Integrated Cross-border Maritime Law Enforcement Operations 
program, otherwise known as Shiprider. This program enables the RCMP 
and USCG to become designated ``shipriders'' who can then conduct 
patrols on each other's vessels within the territorial waters of both 
countries. Used along with intelligence and investigative-driven 
operations, it provides a seamless law enforcement process that is less 
taxing on personnel and resources while providing more efficient and 
effective response to criminal activity in territorial waters The 
Shiprider program diminishes the ability of drug traffickers to use the 
international border as a way to evade pursuit by either U.S. or 
Canadian law enforcement officers. As of May 2016, there are Shiprider 
operations in Vancouver, BC/Blaine, WA; Windsor, ON/Detroit, MI; 
Kingston, ON/Alexandria Bay, NY; and Victoria, BC/Port Angeles, WA.
    In 2017, USBP stood up a Northern Border Coordination Center (NBCC) 
in Detroit, Michigan at the Selfridge Air National Guard Base. The NBCC 
was established to collaboratively strengthen risk-informed and 
intelligence-driven law enforcement efforts that enhance operational 
integration with domestic and international partners. The NBCC provides 
a common threat picture to enhance CBP's bi-national approach to 
developing timely, relevant, predictive, and actionable intelligence. 
The NBCC intends to connect with the RCMP, CBSA, and other Canadian law 
enforcement partners to better share information and collaborate on 
shared threats and targets.
    Question 2d. Where is there room for improvement?
    Answer. Through international treaties, bilateral Memorandums of 
Understanding (MOUs), and other agreements and arrangements, the United 
States and Canada have developed an efficient and effective joint 
border enforcement posture to enhance the security of both our 
countries. This posture includes efforts within, at, and away from our 
borders. However, some legal obstacles remain that, if addressed 
through Canadian legislation, could enhance U.S. security at the 
perimeter and along the Northern Border. The lack of agreed-upon 
privileges and immunities for some U.S. law enforcement officials, 
including U.S. Border Patrol and ICE HSI agents, has hindered efforts 
to commence joint patrols and coordinated joint investigations with 
Canadian authorities in the land environment in Canada. Addressing this 
issue could also enable preventative joint patrols and coordinated 
joint investigations with Canadian authorities in Canada, enhancing the 
ability of U.S. law enforcement officials to interdict malicious actors 
or illicit goods at the earliest possible point.
       Questions From Ranking Member Filemon Vela for Kevin Kelly
    Question 1. There are six ICE HSI Special Agents in Charge offices 
with areas of responsibility along the Northern Border. The Northern 
Border Threat Analysis report states there are insufficient resources 
to cover the expansive Northern Border. Some might argue we are 
planning to build multi-billion dollar border walls while failing to 
provide basic security resources to the Northern Border.
    Can you talk about the inadequate facilities and the out-of-date 
interoperable hand-held and vehicle communications systems your folks 
have to struggle with? How does this impact joint agency operations 
given the number of jurisdictions at play to the north?
    Answer. The Northern Border poses unique challenges for effective 
tactical radio communications and supporting infrastructure. The U.S. 
land border with Canada is approximately 3,100 miles long, generally 
sparsely populated, and with a topography that includes mountain ranges 
and the Great Lakes. In general, law enforcement radio communications 
must take place in a direct line of sight between two radios, across a 
maximum distance of about 7 miles. To communicate over greater 
distances, the signal must be relayed between a series of repeater 
stations, each covering an area of about 2,800 square miles, or a 30-
mile radius from the tower. Networks of such repeaters are the 
framework of U.S. Immigration and Customs Enforcement's (ICE) 
communications infrastructure. ICE Homeland Security Investigations 
(HSI) does have some capability through HSI Mobile Command Centers to 
provide limited communications support in such areas with adequate lead 
time.
    ICE HSI has obtained frequencies to use near the Northern Border; 
however, these frequencies must be coordinated with and approved by the 
Canadian Government. In addition, these same frequencies only address 
some of the current gaps along the border. Without additional funding, 
the entire border cannot be covered. Federal agencies must obtain 
approval from the National Telecommunications and Information 
Administration and the Canadian Government in order to obtain 
frequencies assigned for use along the Canadian Border. This results in 
significant delays in obtaining new radio channels necessary to get 
systems up and running. The coordination often results in the 
requirement that program radios operate at lower power levels than are 
typically used by ICE HSI, which reduces the range of the radios.
    ICE HSI currently has very high frequency (VHF) radios that are 
Project 25-compliant (compliant with current standards for public 
safety multiband radio communications) and provide interoperability 
with other Federal agencies within DHS. ICE HSI's radios are also 
compatible with those of almost all Federal agencies outside of DHS, 
with the exception of U.S. Drug Enforcement Administration, which 
operates in the ultra-high frequency (UHF) band. Communications 
capabilities of State and local agencies in both the United States and 
in Canada vary; and making systems interoperable would require ICE to 
purchase multi-band radios capable of operation in the VHF, UHF, and 
800 megahertz bands. These radios cost approximately $6,500 each.
    Question 2. Even with insufficient resources, ICE made 5,009 
criminal arrests, 665 administrative arrests, 103 human smuggling 
arrests, and 509 human trafficking arrests along the Northern Border in 
fiscal year 2016. ICE Homeland Security Investigations (HSI) seized 369 
pounds of cocaine, 400 pounds of heroin, 424 pounds of marijuana, 392 
pounds of methamphetamines, 1,618 weapons, and $20,717.73 in the same 
year.
    To the extent you can in this setting, could you talk about any 
recent trends regarding criminal activity on the Northern Border, in 
particular the rise of outlaw motorcycle gangs?
    Answer. A persistent threat to U.S. public safety continues to be 
the bi-directional flow of drugs. Transnational criminal organizations 
(TCOs) continually adapt their drug production, smuggling methods, and 
routes to avoid detection by U.S. and Canadian law enforcement and to 
meet consumer demands in both countries.
    One such adaptation is the suspected alignment of traditional 
organized crime groups (e.g. La Cosa Nostra, Mexican Cartels, etc.) 
with outlaw motorcycle gangs (OMGs) in Southern Ontario. The OMGs have 
been infiltrating the workforces at Canadian seaports and airports in 
order to facilitate the smuggling of contraband through these critical 
infrastructures with minimal exposure to their criminal organization. 
U.S. Immigration and Customs Enforcement Homeland Security 
Investigations Buffalo has encountered OMGs operating as TCOs, and 
moving their contraband through the Northern Border. The OMGs in 
Southern Ontario have suspected business relationships with Mexican 
drug trafficking organizations.
    The topography along mountainous parts of the Northern Border is 
occasionally exploited by smugglers flying private aircraft at low 
altitude to evade radar detection. There are numerous small airports, 
unmanned airstrips, and lakes throughout these rural areas that provide 
smugglers the opportunity to make short-duration, low-altitude flights 
through sparsely-populated areas, thereby further reducing their 
chances of detection. While the region remains vulnerable to tactics 
that use general aviation aircraft to transport illicit cargo to or 
from Canada, there are no reports indicating that the tactics are 
employed on a large scale.
    The unique nature of the maritime boundaries between the United 
States and Canada create a conducive environment for TCOs to traffic 
drugs, people, and other contraband. High-density recreational boating 
traffic, short transit distances between countries, and close proximity 
to Tribal reservation lands create a complex problem set for law 
enforcement.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
